<html>
<title> - THE NEW DEPARTMENT OF HOMELAND SECURITY HEADQUARTERS AT ST. ELIZABETHS: LOCAL BUSINESS OPPORTUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
      THE NEW DEPARTMENT OF HOMELAND SECURITY HEADQUARTERS AT ST. 
                ELIZABETHS: LOCAL BUSINESS OPPORTUNITIES 

=======================================================================

                                (110-90)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 12, 2007

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

39-998 PDF                       WASHINGTON : 2007 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             WAYNE T. GILCHREST, Maryland
JERROLD NADLER, New York             VERNON J. EHLERS, Michigan
CORRINE BROWN, Florida               STEVEN C. LaTOURETTE, Ohio
BOB FILNER, California               RICHARD H. BAKER, Louisiana
EDDIE BERNICE JOHNSON, Texas         FRANK A. LoBIONDO, New Jersey
GENE TAYLOR, Mississippi             JERRY MORAN, Kansas
ELIJAH E. CUMMINGS, Maryland         GARY G. MILLER, California
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
LEONARD L. BOSWELL, Iowa             HENRY E. BROWN, Jr., South 
TIM HOLDEN, Pennsylvania             Carolina
BRIAN BAIRD, Washington              TIMOTHY V. JOHNSON, Illinois
RICK LARSEN, Washington              TODD RUSSELL PLATTS, Pennsylvania
MICHAEL E. CAPUANO, Massachusetts    SAM GRAVES, Missouri
JULIA CARSON, Indiana                BILL SHUSTER, Pennsylvania
TIMOTHY H. BISHOP, New York          JOHN BOOZMAN, Arkansas
MICHAEL H. MICHAUD, Maine            SHELLEY MOORE CAPITO, West 
BRIAN HIGGINS, New York              Virginia
RUSS CARNAHAN, Missouri              JIM GERLACH, Pennsylvania
JOHN T. SALAZAR, Colorado            MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            TED POE, Texas
DORIS O. MATSUI, California          DAVID G. REICHERT, Washington
NICK LAMPSON, Texas                  CONNIE MACK, Florida
ZACHARY T. SPACE, Ohio               JOHN R. `RANDY' KUHL, Jr., New 
MAZIE K. HIRONO, Hawaii              York
BRUCE L. BRALEY, Iowa                LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          CHARLES W. BOUSTANY, Jr., 
TIMOTHY J. WALZ, Minnesota           Louisiana
HEATH SHULER, North Carolina         JEAN SCHMIDT, Ohio
MICHAEL A. ACURI, New York           CANDICE S. MILLER, Michigan
HARRY E. MITCHELL, Arizona           THELMA D. DRAKE, Virginia
CHRISTOPHER P. CARNEY, Pennsylvania  MARY FALLIN, Oklahoma
JOHN J. HALL, New York               VERN BUCHANAN, Florida
STEVE KAGEN, Wisconsin
STEVE COHEN, Tennessee
JERRY McNERNEY, California
LAURA A. RICHARDSON, California

                                  (ii)

  


 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

        ELEANOR HOLMES NORTON, District of Columbia, Chairwoman

MICHAEL H. MICHAUD, Maine            SAM GRAVES, Missouri
JASON ALTMIRE, Pennsylvania          BILL SHUSTER, Pennsylvania
MICHAEL A. ARCURI, New York          SHELLEY MOORE CAPITO, West 
CHRISTOPHER P. CARNEY,               Virginia
Pennsylvania, Vice Chair             CHARLES W. DENT, Pennsylvania
TIMOTHY J. WALZ, Minnesota           JOHN R. `RANDY' KUHL, Jr., New 
STEVE COHEN, Tennessee               York
JAMES L. OBERSTAR, Minnesota         JOHN L. MICA, Florida
  (Ex Officio)                         (Ex Officio)

                                 (iii)




























                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Abdur-Rahman, Dawud, Director, Portfolio Management Division, 
  National Capital Region, General Services Administration.......     4
Gay, Rear Admiral Earl, U.S. Navy, Commandant, Naval District 
  Washington, Washington Navy Yard...............................     4
Hopkins, Jr., Albert, President and CEO, Anacostia Economic 
  Development Corporation........................................    23
Imperato, John, Director, Corporate Information Management, 
  Washington Navy Yard...........................................     4
James, Robert, President, Ward 8 Business Council................    23
Lang, Barbara, CEO, D.C. Chamber of Commerce.....................    23
Pannell, Philip, Executive Director, Anacostia Coordinating 
  Council........................................................    23
Voudrie, Stan, Principal, Four Points, LLC.......................    23
Winstead, David, Commissioner, Public Buildings Service, General 
  Services Administration........................................     4

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Graves, Hon. Sam, of Missouri....................................    42
Norton, Hon. Eleanor Holmes, of the District of Columbia.........    46
Oberstar, Hon. James L., of Minnesota............................    51

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Abdur-Rahman, Dawud..............................................    52
Gay, Rear Admiral Earl L.........................................    56
Hopkins Jr., Albert R............................................    60
James, Robert....................................................    71
Lang, Barbara B..................................................    73
Pannell, Philip E................................................    77
Voudrie, Stan....................................................    79
Winstead, David L................................................    80

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


HEARING ON THE NEW DEPARTMENT OF HOMELAND SECURITY HEADQUARTERS AT ST. 
               ELIZABETH'S: LOCAL BUSINESS OPPORTUNITIES

                              ----------                              


                      Wednesday, December 12, 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings, and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We want to welcome you to today's hearing 
entitled the New Federal Headquarters at St. Elizabeth's: Local 
Business Opportunities, concerning an unprecedented Federal 
development to be located on the federally-owned West Campus of 
St. Elizabeth's Hospital in Anacostia in Southeast Washington. 
The property is the only significant Federal site in the 
District available for Federal development. This construction 
will mark the first decision by the Federal Government to place 
a Federal agency east of the Anacostia River since the District 
was established.
    In 1984, Congress authorized the transfer of the St. 
Elizabeth's East Campus to the District of Columbia in Public 
Law 98-621, and the transfer occurred in 1987. However, the 
Federal Government has insisted on retaining the West Campus 
because of the savings from building on its own land, because 
of the presence of two Metro stations and other public 
transportation, and because of the accessibility and proximity 
of the site to other Federal agencies in the District.
    The Federal Government will break ground next year on its 
176 acre West Campus site. The components identified for 
consolidation are the DHS Headquarters, Transportation and 
Security Administration, Customs and Border Protection, 
Immigration and Customs Enforcement, the Federal Emergency 
Management Administration and the United States Coast Guard.
    An addendum for inclusion in the record follows my written 
statement, describing the evolution of the Federal land from 
the establishment of St. Elizabeth's as an state of the art 
mental institution in 1855, when local government here was in 
the exclusive control of the Federal Government, to today.
    The General Services Administration and I have always 
worked closely with the community and the District Government 
concerning planned Federal development here. This cooperation 
has been beneficial to local communities. It has been as 
beneficial to local communities as to the Federal Government 
because Federal construction that brings Federal employees and 
Federal business to an area has unfailingly sparked local 
retail and commercial development.
    For example, the development of the M Street Southeast 
neighborhood was an almost exact parallel of Martin Luther King 
Jr. Avenue, the main commercial thoroughfare that borders St. 
Elizabeth's. Blocks of abandoned federally-owned and blighted 
land in the M Street community deterred development for decades 
in the adjacent communities. Change could not and did not occur 
as long as two vast Federal properties responsible for the 
decay, the 66 acre Navy Yard remained an empty relic, an almost 
empty relic, and the 57 acre Southeast Federal Center continued 
as an unsightly and abandoned brownfield.
    When we were able to get a government agency, the Naval Sea 
Systems Command, to come to the Navy Yard, M Street almost 
spontaneously developed. With the assistance of the Great 
Streets Initiative developed by the Williams Administration and 
help from officials at the Navy Yard, 5,000 new Federal 
employees helped spur retail.
    Structural changes and improvements were made to the 8th 
Street corridor which had been largely moribund. New 
restaurants and amenities that serve local residents and 
Federal employees alike resulted from the Federal partnership 
with the city, local businesses and residents.
    Nevertheless, the adjacent abandoned Southeast Federal 
Center property continued to stunt full development until 
Congress passed our Southeast Federal Center Act. We have tried 
to replicate this Act to benefit other communities here and 
elsewhere, but Federal scoring procedures stand in the way.
    This hearing continues the process we began shortly after 
the Federal Government funded the new DHS headquarters.
    In 2006, we held a town meeting where top GSA, Coast Guard 
and District officials participated in the standing room only 
meeting, taking questions from residents. The GSA has continued 
to assure community participation in countless meetings, 
working with Ward 8 residents by informing them of developments 
and getting feedback to assist Federal authorities in making 
decisions.
    The project has been well received by community residents 
who are sick of decades of blight and decay from the huge 
abandoned Federal property in their midst and are hopeful that 
the new headquarters will help spur retail and other efforts 
underway to secure increased commercial development.
    A few months ago, GSA and I and one of our witnesses today 
co-sponsored a small business forum on opportunities that will 
become available because of the new headquarters project.
    This is the first Congressional hearing on the new 
headquarters development aside from the prescribed authorizing 
and appropriation proceedings. This hearing is intentionally 
devoted to local interests and concerns in light of the 
challenges that must be carefully thought through by all 
concerned regarding the unprecedented nature of this project.
    Witnesses representing Ward 8 and local business leaders 
will testify. Mayor Fenty was invited, but he was unavailable.
    The Federal Government is crossing the Anacostia with one 
of its most prestigious and important agencies at a time when 
Wards 7 and 8 are seeking to become destination points like the 
rest of the District. The city is looking at the option of 
building a soccer stadium for D.C.'s champion soccer team, D.C. 
United, on the Poplar Point site, authorized for transfer to 
the District last year by our bill, Public Law 109-396.
    Last Friday, Giant opened the largest supermarket in the 
region in the Camp Simms section of Ward 8, using Federal new 
market tax credits.
    The new headquarters carries significant promise if local 
residents and businesses and the Federal and local governments 
work and plan closely together. We focus particularly on local 
concerns today because D.C. residents and businesses, 
particularly those in Ward 8, alone will have to live with the 
headquarters 24-7.
    A continuing complaint of Ward 8 residents has long been 
that despite hosting the greatest number of housing starts in 
the District, even the most basic retail has not followed the 
ward's growing population.
    We cannot afford to assume that the retail and commercial 
development that the community most needs and desires will 
arrive spontaneously in part because prime parts of the 
headquarters property will be enclosed by a long wall that must 
be preserved because of its historic significance. 
Consequently, large portions of Martin Luther King Jr. Avenue 
will continue to be unavailable for the local retail activity 
that usually follows Federal workers.
    It is important for all concerned to begin assessing now 
where development is likely to occur and what sort of 
development should be most encouraged. Special attention to the 
long-neglected community concerns and close cooperation between 
D.C. and the Federal Government will be needed to assure that 
the needed high quality retail and other businesses are 
attracted in a manner consistent with maximizing the potential 
generated by the presence of 14,000 Federal employees.
    There is no magic formula for success, but the pieces 
appear to be aligned: a community that has thought long and 
hard about economic development in the ward, a major Federal 
headquarters coming to the neighborhood at St. Elizabeth's, 
development opportunities from the Federal land transfer of the 
Poplar Point site and a long tradition of Federal and local 
collaboration to assure mutual benefit. If all roll up their 
collective sleeves to get the job done together, we will not 
fail.
    However, an indispensable step for all concerned should be 
to look to the community for advice and counsel. We continue 
that process with today's hearing.
    Congressman Kuhl, do you have any statement you would like 
to make?
    Thank you very much.
    Now, let us move to our first panel of witnesses. Would you 
begin? Let's go from Mr. Winstead by identifying yourself and 
the next witness identify himself and so forth.

  TESTIMONY OF DAVID WINSTEAD, COMMISSIONER, PUBLIC BUILDINGS 
 SERVICE, GENERAL SERVICES ADMINISTRATION; DAWUD ABDUR-RAHMAN, 
   DIRECTOR, PORTFOLIO MANAGEMENT DIVISION, NATIONAL CAPITAL 
REGION, GENERAL SERVICES ADMINISTRATION; REAR ADMIRAL EARL GAY, 
 U.S. NAVY, COMMANDANT, NAVAL DISTRICT WASHINGTON, WASHINGTON 
   NAVY YARD; JOHN IMPERATO, DIRECTOR, CORPORATE INFORMATION 
                MANAGEMENT, WASHINGTON NAVY YARD

    Mr. Winstead. Madam Chairman, I am David Winstead, 
Commissioner of the Public Buildings Service at GSA.
    Congressman Dent and Members of the Committee, I am very, 
very pleased to be here today.
    I think, Madam Chair, your overview on the partnership 
which GSA has had with the National Capital Region and with 
many communities where a lot of our development projects have 
impacted is very, very important, and I look forward to 
listening to the witnesses here today, the leadership that we 
have with the community and the Navy and other clients.
    I am also joined today with, as you know, Dawud, who is our 
Development Director for the project as well as Bart Bush, the 
Assistant Regional Administrator, and Tony Costa, my Deputy 
Administrator.
    In my testimony today, Madam Chair, I also want to thank 
you for your leadership in the September 18th business forum 
that I understand went very, very well, and I think it is 
indicative of your engagement in projects that are very 
important for Federal tenants in the National Capital Region as 
well as communities that you represent.
    I would like to address several issues today: the project 
itself, GSA's, I think, excellent track record in encouraging 
economic development of neighborhoods and under-served 
neighborhoods across this Country and locally here in the 
District, the economic impact of Federal spending which we know 
is substantial in the National Capital Region as well as my 
personal commitment and that of the Administrator and the 
Regional Administrator here at NCR and ARA in terms of this 
project at St. Elizabeth's.
    First, the project itself: GSA is now preparing, as you 
know, a master plan for the development of a headquarters 
facility for DHS at St. Elizabeth's West Campus. Creating such 
a headquarters helps continue consolidation of this large, 
diverse Federal agency into one increasingly effective and 
cohesive cabinet department.
    DHS is proposing to locate, as you mentioned, up to 14,000 
of its employees at St. Elizabeth's, bringing together these 
components of the Department that must be assembled to respond 
quickly to national emergencies. At 175 acres, the St. 
Elizabeth's West Campus is large enough to accommodate DHS' 
needs as well as to provide 100 foot setback for the entire 
campus, a very difficult requirement to fulfill for any agency 
of this size in any urban setting.
    Consolidation of the agency components on Government-owned 
land will offer a substantial savings to the American people 
and taxpayers over the alternative of consolidating in leased 
space and replacing currently leased space in over 22 locations 
around the National Capital Region.
    Finally, St. Elizabeth's is a National Historic Landmark 
and the development of DHS headquarters there offers a unique 
opportunity to restore many of the historic features of the 
campus that have badly deteriorated over time. So, making this 
project a success is important for our Nation as well as for 
the National Capital Region.
    Regarding the National Historic Landmark, just as a 
reference, I am meeting tomorrow afternoon with Dick Moe, who 
is President of the National Trust for Historic Preservation, 
to further dialogue with the leadership of the historic 
preservation community.
    I would like to share with you today, based on discussions 
with the Committee and counsel, some examples of GSA's success 
in working with local communities on a large scale like St. 
Elizabeth's and the economic benefit that accrues to areas.
    You talked at great length about the Southeast Federal 
Center and your leadership in that legislation.
    Through GSA's Public Buildings Service's Good Neighbor 
Program, we seek to basically conduct our real estate 
activities and decisions to, number one, obviously, meet our 
client agency's needs, and we are doing a lot more in terms of 
long term planning about space consolidation and efficiency of 
housing of those clients but also to support, which is the 
topic of this panel, the communities that we serve and the 
communities in which these jobs are located and the economic 
impact and other impositions such as transportation are felt.
    We engaged with local communities early in the process, 
soliciting public input--this panel today will help in that 
regard--select locations and utilizing designs that engage 
community goals and priorities and support community economic 
development goals.
    GSA has been particularly active in working across the 
Country and with the District Government to find opportunities 
to build or lease space in under-served communities. Towards 
this end, GSA is currently engaged in developing several new 
projects.
    The Denver Federal Center in Colorado is a great case of 
almost 3.9 million square feet that will be housed in Denver 
and served by a new transit line that has been routed to serve 
that Federal installation. It will be a first class Federal 
campus.
    In addition, obviously, here in the National Capital 
Region, as you well know, Madam Chair, the FDA is under a huge 
three million square foot expansion to a campus in White Oak, 
Maryland. Again, in that regard, as in the case of St. 
Elizabeth's, our engagement with the community through their 
community liaison group, Labquest, has been substantial over 
the last five to ten years, and we have sought their support 
both in economic development as well as housing needs for new 
FDA employees coming to the White Oak campus.
    GSA, as you know, donated a portion of White Oak to the 
Maryland Department of Transportation for transportation 
improvements along New York Avenue, very similar to what we are 
doing with the Southeast Federal Center.
    In addition, NOMA is another great case where we have now 
opened a new headquarters for the Bureau of Tobacco and 
Firearms, located on a site purchased from the District of 
Columbia, and this project includes 8,000 square feet of retail 
and other amenities to serve those Federal tenants at ATF 
headquarters.
    The Southeast area of Washington, as you also know, 
redeveloping the Southeast Federal Center, has been greatly 
assisted by the legislation you advanced and also coupled with 
the District and the private sector through Forest City in both 
the headquarters of the Department of Transportation that we 
have now opened as well as a mixed use project of almost two 
million square feet and almost 2,800 dwelling units with 
400,000 square feet of retail to serve not only DOT employees 
but all the other Federal tenants and private sector uses in 
that area.
    All of these projects are occurring in areas that had not 
experienced economic prosperity in this region prior to GSA's 
engagement, the Federal need to really spark things and to 
provide, obviously, Federal tenancy to meet housing needs of 
our clients, and now GSA is poised to do that in Ward 8.
    But the economic benefits conveyed by the Federal 
Government on urban areas of the District go way beyond just 
direct employment. As you know, George Mason University's 
Stephen Fuller often articulates the impact of our investments, 
Federal investments in the District in terms of employment. 
Federal procurement spending has grown from $12 billion in 1990 
to $28 billion in the year 2000.
    This study of Dr. Fuller's points out that more procurement 
dollars are going to be spent each year in the National Capital 
Region than any other single State in the Nation. It is 
calculated that this investment generates 21 percent 
aggregately in the Metropolitan Washington economy, the GNP for 
the National Capital Region. So, procurement spending is 
responsible directly, Federal spending, for almost 170,000 jobs 
in the District of Columbia.
    In 2004, GSA joined with the National Trust for Historic 
Preservation in a similar partnership to St. Elizabeth's in a 
project in Baltimore, in which the net result has been almost 
$50 million of impact to the Baltimore regional economy. So it 
is an important point to keep in mind, when we consider the 
possible economic benefits, these other projects as examples in 
terms of development of the St. Elizabeth's West Campus.
    For firms doing business with DHS, they will want to locate 
nearby. For DHS workers and employees on the campus, they will 
want to shop nearby. There will be further development in 
neighborhoods.
    Our National Capital Region is involved closely. I have 
talked to Harriet Tregoning and others. They have engaged 
closely with the planning leadership of the District in this 
regard.
    We will continue to move forward on our plans to relocate 
new housing for DHS in Ward 8 and working with the District as 
well on adjacency in terms of impact on the East Campus where 
they are looking at their zoning authority to encourage office 
and residential development on that adjacent campus to ours.
    Before I close, I would like to comment just briefly on my 
personal commitment to this project. Madam Chair, in about June 
of 2006, you and I went up to the Ward 8 neighborhood for a 
town hall meeting, and this was just one example of the many 
meetings that have been held since, over a dozen that GSA has 
held in Anacostia and Congress Heights neighborhoods, as well 
as our project director who you will hear from next has been 
very, very involved in this effort and will give you more 
detail.
    Recently, I had an opportunity to talk to Charlene Jarvis 
who I knew very well, who is the head of Southeastern 
University, and people like that are constantly getting 
involved and looking at maybe career training opportunities for 
jobs as result of St. Elizabeth's.
    So my message is very, very simple, Madam Chair. GSA, as 
you noted, as a very important role to serve DHS with this 
consolidation, and the result of it will have very profound 
impact on the community and the economic interest of Ward 8.
    Thank you.
    Ms. Norton. I would like to note that the Ranking Member, 
Mr. Graves, has come. I know he is going to have leave a markup 
later and can't stay throughout this hearing. I want to welcome 
him and ask him if he has anything he would like to say at this 
point.
    Mr. Graves. Thank you, Madam Chairman. I appreciate the 
opportunity.
    I am very interested in this project and actually a couple 
of different projects. We were just talking up here too about 
the Navy Yard, but I will turn my statement in for the record.
    I look forward to hearing what I can from the witnesses and 
appreciate you all being here. I am going to pop out for a 
markup and then be back, but thank you all for being here 
today.
    Ms. Norton. Thank you, Mr. Graves.
    Next witness, Mr. Abdur-Rahman.
    Mr. Abdur-Rahman. Madam Chair, Members of the Subcommittee, 
my name is Dawud Abdur-Rahman. I serve as Development Director 
in the General Services Administration National Capital Region, 
and I am working on the preparation of a master plan for the 
Department of Homeland Security headquarters complex at the St. 
Elizabeth's West Campus.
    I am pleased to have the opportunity to appear before you 
to supplement the remarks made by Commissioner Winstead 
regarding the economic benefits that our project will have for 
Washington, D.C. and the Ward 8 neighborhood.
    GSA is currently preparing a master plan for this project. 
We propose to develop up to 4.5 million square feet of space 
and up to 1.8 million square feet of structured parking on the 
176 acre St. Elizabeth's West Campus. This development will 
include new construction along with the restoration and 
modernization of the majority of the existing campus. When 
completed, the facility will house up to 14,000 employees.
    In my remarks today, I would like to summarize the action 
GSA has taken and will take to make St. Elizabeth's West Campus 
a valuable and important neighbor in Ward 8.
    First, we stopped the rampant and progressive deterioration 
of this National Historic Landmark. When GSA assumed custody 
and control of the West Campus in 2004, the buildings and 
landscape were in deplorable condition.
    Holes in the roofs had to be patched. The most historic 
building on campus, the Center Building, and the beautiful 
Beaux Arts style Hitchcock Hall had both suffered extensive 
damage from the leaks in the steam distribution systems. All of 
the floors had collapsed in one wing of the Center Building.
    Anticipating the ultimate redevelopment of the campus, GSA 
invested $13 million in a stabilization program. This work, 
most of which was done by Section 8(a) small business 
contractors, includes construction, landscaping, security 
services and building management.
    A total of 40 percent of all contracts issued since late 
2004 have been awarded to D.C.-based firms and 60 percent of 
the $4 million of work currently underway is being performed by 
D.C.-based firms.
    Now we are preparing a master plan for the phased 
development of the headquarters facility. Congress has already 
appropriated funding for the preparation of this document, the 
design of the first phase of the project, a headquarters for 
the United States Coast Guard and initiating the repair and 
replacement of the infrastructure for the entire site.
    This fiscal year, 2008, the Administration is requesting 
$346 million to fund GSA construction of the Coast Guard 
headquarters building and further infrastructure as well as to 
begin design work for phase two.
    The construction of the DHS headquarters complex will 
convey considerable economic benefits to the local community. 
Construction costs alone are expected to exceed $3 billion, and 
that means a lot of construction jobs and construction site 
support services.
    Federal acquisition regulations require all Federal 
agencies to create as many opportunities as possible for small 
businesses to compete as prime contractors on Federal projects 
and for large contractors on Federal projects to establish 
subcontracting goals for small businesses. In fiscal year 2007, 
GSA's Public Buildings Service entered into $240 million in 
contracts in this region with small businesses.
    We also encourage our construction contractors to 
participate in an approved apprenticeship program so that 
residents of Ward 8 and other parts of the District will have 
the opportunity to be trained for careers in construction 
trades.
    With up to 14,000 employees on the site, there is a 
sizeable potential market for the businesses located nearby. In 
addition, contractors doing business with DHS will be tempted 
to locate in office space within a short distance of the campus 
to facilitate frequent contacts with their client.
    In an effort to calculate the potential economic benefits 
that this project will generate, GSA utilized a computer model 
called the Regional Input-Output Multiplier System, otherwise 
known as RIMS II, developed by the Bureau of Economic Analysis. 
It is used extensively by both the public and private sectors 
for such projects as estimating the impacts of military base 
closures, airport construction and the development of shopping 
malls and sports stadiums.
    Using this model, GSA projects that development of St. 
Elizabeth's West Campus will generate 26,000 jobs and $931 
million in payroll during construction alone. It is also 
expected to produce $18 million per year in sales and use taxes 
after occupancy occurs.
    Some of these benefits are regional in scope. Commissioner 
Winstead has already described the significant role that the 
District of Columbia can and must play if this project will 
generate maximum benefits for the immediate neighborhood. GSA 
is working closely with the District Government and with the 
neighborhood to push such a coordinated approach forward.
    In September, we worked closely with you, Madam Chair, and 
the Anacostia Economic Development Corporation to conduct a 
business opportunities forum at Matthews Memorial Baptist 
Church to explain opportunities that could be generated by our 
development. We are already using Ward 8 firms to provide 
services for these events.
    In November, we briefed Deputy Mayor for Planning and 
Economic Development Neil Albert and Planning Director Harriet 
Tregoning on our project, and later that month we provided a 
tour of the site for Deputy Mayor Albert and City Administrator 
Dan Tangherlini. We discussed ways that the St. Elizabeth's 
East Campus can be developed to take advantage of the 
opportunities posed by the development of the West Campus.
    This past Monday, December 10th, we met with James Bunn, 
Executive Director of the Ward 8 Business Council, in 
Councilman Barry's constituent office to explore how our 
project can generate business opportunities for the community. 
We are encouraged by the neighborhood's support for our 
project, and we look forward to continuing to work with them.
    GSA stands ready to continue working with you, Madam Chair, 
with the District Government and with the Ward 8 community to 
make this project a success.
    Ms. Norton. Thank you very much.
    We will move on to Rear Admiral Gay.
    Admiral Gay. Good morning, ma'am. Good morning, Madam Chair 
Norton and other distinguished Members of the Committee.
    I am Rear Admiral Earl Gay, Commandant of the Naval 
District Washington, and I am responsible for 18 installations 
with the National Capital Region including the Washington Navy 
Yard and its Anacostia Annex.
    Thank you this morning for this opportunity to discuss the 
Washington Navy's Yard's role in community development along 
the M Street corridor in Southeast Washington, DC.
    For a historical perspective, I brought with me Mr. John 
Imperato. Mr. Imperato is my Community Relations Director and 
has served in this capacity for the past 16 years. He will 
provide you with a broad perspective of BRAC development and 
the influence of the Washington Navy Yard on business 
development on M Street Southeast, the 8th Street corridor and 
Barracks Row.
    We look forward to maintaining our close ties within the 
community and continuing to support the growth and 
revitalization of this great capital city and surrounding 
neighborhoods.
    Thank you.
    Ms. Norton. Thank you very much.
    Mr. Imperato, are you going to answer questions or do you 
have separate testimony?
    Mr. Imperato. I have submitted testimony for the record, 
and I am prepared to answer questions.
    Ms. Norton. Well, if you would like to say something before 
we proceed.
    Mr. Imperato. Just basically, an overview is, in the 
nineties, we moved about 5,000 Navy employees to the Navy Yard, 
and an additional 5,000 contract personnel came along with them 
and brought our population up to about 12,000. The additional 
5,000 people provided quite a customer base in the community. 
We felt that we should partner with the community to provide 
services to these people and benefit the community as a whole.
    I would be happy to answer any questions you might have.
    Ms. Norton. Thank you very much.
    We brought you both together and had you testify together 
because the Navy Yard is perhaps the most recent example of 
what the coming of Federal employees can do if you work closely 
with the agency.
    Now, what we are most interested in, of course, is the 
agency's policy. For example, Mr. Winstead or Mr. Abdur-Rahman, 
do you have a development policy quite apart from the policy to 
build the agency that incorporates the community?
    Mr. Winstead. Madam Chair, GSA policy is to work very, very 
closely with all the communities around our major projects, and 
we are responsible for pursuing that in ways that include both 
our housing needs as well as local goals. In the short term, 
these directives acknowledge collaboration needs with local 
officials, where to locate, how to design and operate 
facilities.
    The principals of this neighborhood development program 
that we have are basically to locate new lease facilities in 
places that support local planning, economic development and 
master planning goals as well as to design them to meet 
workplace needs and support overall urban design. So we are 
focused on the St. Elizabeth's neighborhood in that regard.
    Also, renovating Federal properties and the custodianship 
we have for over 400 Federal buildings and 2 dozen national 
landmarks similar to St. Elizabeth's is a part of that 
neighborhood policy.
    We are also driven by law under the Federal Urban Land Use 
Act of 1949 in that regard to both look at the impact we have 
and to guard on the Cooperative Use Act of 1976 as well as the 
Public Buildings Amendment Act of 1988. So there are a number. 
There are about five or seven laws.
    Ms. Norton. What I am trying to find out is whether you 
have a policy or goal when you build a Federal facility like 
this to open or to encourage public business objectives. We 
know that the district has to do with the zoning and the master 
plan and the like.
    But to encourage businesses to locate around the Federal 
development where Federal employees will be, is there a written 
policy? Are there goals connected with the GSA's responsibility 
to see that the Federal employees are served with some kind of 
retail or business in the local neighborhood?
    Mr. Winstead. We do, and this neighborhood development and 
these policies and the acts that I mentioned require that we do 
so.
    So, in the case of St. Elizabeth's, not only the business 
forum you had, but our close working with the D.C. zoning, with 
Harriet Tregoning and others are actually targeted to do that. 
It is to make sure that the redevelopment of Martin Luther 
King, the great streetscape efforts and to look at densities 
being planned for the corridors between the East and West 
Campuses, that we look at that in terms of its ability to 
handle growth as well as retail, restaurants and other 
amenities to serve the employees, the 14,000 employees at 
build-out.
    Ms. Norton. In my opening statement, I indicated that both 
the District and the GSA face a major structural problem that 
we did not find in NOMA where all that property has been bought 
up and we expect Federal agencies and private business to come. 
Amenities are being developed. But there was no wall and, here, 
we have an agency that could be walled in.
    Now, Federal Law requires, always requires some amenities 
in the agency. So you will not find an agency which does not 
have amenities. But when you have a wall and you have amenities 
provided on the inside, have you considered that if you 
provided every amenity you can think of on the inside, there 
would be no reason for these 14,000 employees to venture into 
the community the way they venture into the downtown community, 
the way they venture into NOMA?
    Have you considered the structural problem with carrying 
out your normal policy of encouraging Federal employees to do 
some retail in the neighborhood and therefore retail comes to 
the neighborhood because they know there will be this large 
number of Federal employees in addition to the residents?
    Mr. Winstead. Do you want to add a comment?
    Ms. Norton. Yes, Mr. Abdur-Rahman, you are the one that has 
been working the project. You are the face of GSA in the 
community. If you have thought about this, I would appreciate 
anything you would have to say.
    Mr. Abdur-Rahman. Sure. Congresswoman Norton, we have 
thought about this on several fronts.
    I will start with the issue of the wall. One of the things 
that we remind a lot of the planning agencies and even the 
community is that DHS is a high security agency, and GSA and 
DHS and other agencies follow the interagency security 
criteria.
    If you have a concentration of Federal agencies, whether it 
be FDA or St. Elizabeth's West Campus, there is going to be 
some security infrastructure to provide for the protection of 
that Federal population. So there would always be this issue of 
some level of security.
    Ms. Norton. But I haven't even raised the security issue.
    Mr. Abdur-Rahman. Right.
    Ms. Norton. We just put that aside. Let me just say this 
for the record, so everyone understands what the Department of 
Homeland Security has done to us all. If you want to get into 
Federal agency today, this has nothing to do with the 
Department of Homeland Security. It is area-wide.
    Whereas you used to just have to go through whatever is the 
contraption that makes sure you are not carrying any bombs, you 
now have to show an identification. Now, that is not the 
Department of Homeland Security. That is new policy everywhere. 
I am going to have a hearing myself on whether that is 
necessary.
    I had someone from the local B.I.D. on M Street tell me 
that he wanted to go to the cafeteria in the new Department of 
Transportation. That is a headquarters that we worked, what is 
it, well, even before I came to Congress. I have spent a good 
deal of my time in Congress, trying to get that headquarters.
    Here comes a local resident who runs the bid, and he tells 
me that he wanted to have a meeting. Sorry. He wanted to use 
the cafeteria. He had to call someone in the Department of 
Transportation to come downstairs and get him so that he could 
get in to use the cafeteria.
    You know this is madness, but this doesn't have to do with 
the Department of Homeland Security. This is madness from their 
policy.
    So I said when I met with him because the B.I.D. is going 
to have a forum that we are sponsoring with GSA. I said, well, 
suppose I am a taxpayer, and let's say I am taxpayer either 
from the District of Columbia or from podunk.
    I said, oh, my goodness, thank goodness there is a Federal 
building, and I really need to go to the lavatory. Sorry.
    I don't know what showing identification means, but I don't 
want to hear anything about security and Homeland Security. The 
reason I don't want to hear it is that I can't imagine your 
security will be any steeper than in the Department of 
Transportation.
    I said to myself, well, that is interesting. Who is going 
to blow up the Department of Transportation? I mean if al Qaeda 
is down to the Department of Transportation, then I think they 
must have blown up everything else.
    But, again, my question was very specifically about the 
isolation of Federal employees from the community where retail 
has sprung automatically, and my question here has to do with 
the wall and whether or not any of you have taken into account 
the difficulties raised by having that wall there in the first 
place and therefore the need to somehow encourage people that 
there is something on the outside, that there is retail on the 
outside.
    Or, do you plan amenities on the inside and what amenities 
do you plan on the inside?
    Mr. Abdur-Rahman. The next thing that we are trying to do 
in that area is, one, as we said in our opening testimony, as 
we conducted events, we have sought out local businesses and 
contracted with local businesses to provide services for the 
events that we have had and in discussion with the Department 
of Homeland Security.
    I would like to note that the business economic opportunity 
forum that we conducted with you in September, the DHS small 
business officer was also there also. WE are also talking with 
DHS about making available opportunities for local businesses 
to provide services into the campus through catering or dry 
cleaning or those types of things.
    Ms. Norton. Well, this is a very important point, and that 
is a very important point for the community to know. Of course, 
there are two points of retail interest here. The important 
point for the community to know is GSA's very successful 
policy.
    I will cite the ATF. The ATF has amenities in it, and there 
is a small, it turns out, African American woman-owned business 
that runs many of the amenities. That, I think, is very 
important because we must have these amenities within the 
agency or the Federal Government won't move and it shouldn't.
    You shouldn't have a huge Federal agency where you can't 
get a cup of coffee and some other things and some other 
things, to be sure, in there so you don't have to go outside.
    That leaves open what happens in every other Federal 
agency. They have those amenities, at least if they were built 
recently or if they were leased recently. That is to say in 
recent decades.
    But people are on the streets, and I have no indication 
that the District has taken this into account because the 
master plan talks about retail very generally.
    I need to know what the GSA is going to do since it is 
control what amenities are on the inside and what kinds of 
amenities or retail--and I use that word broadly--one would 
expect from your point of view, knowing Federal employees as 
you do, to be on the outside.
    Mr. Abdur-Rahman. Two more points: We are also looking at 
ways, working with DHS, even though we have a campus there, 
making parts of the campus available and open to the community 
on some kind of a regular basis. Specifically, Hitchcock Hall, 
which we mentioned earlier, was in very deplorable condition 
but is very conducive for adaptive reuse as a confidant 
training facility. We think that that is a facility that could 
be available for the community to use and have access to the 
community.
    In addition to that, there will be amenities on campus like 
any other campus of this population, but we do expect and we 
are hoping in our discussion with the city, that on the East 
Campus, that there will be additional amenities available 
because we don't anticipate that all the services that a 
population of 14,000 employees will need will be able to be 
supported on our campus. We are really looking for partnership 
with the District on the East Campus just across the street for 
Federal employees to take advantage of that.
    No Federal employee eats in their cafeteria every day, and 
we are really hoping that as the neighborhood develops, as the 
phase two program evolves and the East Campus develops, as we 
talk to them, that there will be opportunities for Federal 
employees to leave the campus.
    Ms. Norton. It is interesting. You had indication from the 
District that they are going to put something on there?
    The only thing on the East Campus now is Government-type 
facilities. It would be very important if some of those 
amenities could be on the East Campus. They will have some of 
the same security problems, but they don't have some of the 
problems that the Department of Homeland Security.
    Have you had discussions with the District? I know you are 
having some discussions about parking.
    Mr. Abdur-Rahman. Yes, in our preliminary discussion with 
the District, their planning is in a preliminary stage, but it 
does envision mixed use including retail.
    Ms. Norton. Has the District indicated when? They have had 
this property for 25 years, and they only began to build on it 
fairly recently when Mayor Williams came. It would be very 
important for the District to jump start its part of this, 
given the issues presented here.
    But let's turn to either Admiral Gay or Mr. Imperato 
because 8th Street. M Street, of course, was on the other side. 
Where all these buildings are now was barren. We understand the 
contractors came.
    But, in a real sense, you have a parallel situation. People 
don't go into the Navy Yard, although I must say I am very 
grateful that people really do go into use this new marvelous 
facility that you have built, a facility that people can use 
for events, for dinners and the like. But, essentially, they 
don't go into the Navy Yard for lunch and for other retail 
amenities from the community because that is also a secure 
agency.
    Eighth Street, and I can speak from personal experience 
because I am a Capitol Hill resident, the fact that Capitol 
Hill has been gentrified for 25 years didn't matter. Eighth 
Street was moribund, nothing happening there. I couldn't 
understand it.
    There have been plenty of people in Capitol Hill since the 
beginning of time, but 8th Street is a kind of main drag that 
had gone downhill. Now look at 8th Street. If you want to see 
what is happening, you go to Eighth Street. A lot of it is 
restaurants, but there also are other amenities that weren't 
there before.
    You were not here, Admiral Gay, at the time. I know Mr. 
Imperato was because I have worked closely with him. Would you 
describe what kind of a relationship developed with the 
residents, with the city, with local businesses so that we have 
a brand new look and a brand new set of amenities on 8th Street 
that had not been there before?
    Admiral Gay. Well, ma'am, from the outset, the 
collaborative plan was always to look at the capacity we had at 
the Navy Yard with 14,000 people, including contractors. We 
were set to provide the basic amenities and, through 
collaboration with the community's business association, the 
community would provide the balance.
    John, you could comment further on that process.
    Ms. Norton. Well, I am interested in the blossoming of 
restaurants, of places where you can go out and buy something, 
a card or something if you need one. That is really what I am 
interested in, and I see that with my very eyes.
    Mr. Imperato. Yes, ma'am. Basically, the most important 
thing was to communicate to the community what we were doing. 
We worked very closely with the local council member, with 
business associations, the resident associations.
    The city responded with a great deal of investment on 8th 
Street and M Street as far as the infrastructure, the street 
lights, street repavings, sidewalk repairs, landscaping, 
signage, and the businesses were able to feel that there was 
some potential business, and the marketing basically came from 
the community to draw the people out to the community for these 
amenities.
    While we had, as the Admiral pointed out, some limited 
basic amenities, food service, most like to not eat the same 
thing every single day. The variety on 8th Street that 
developed is what draws them out. A lot of the facilities that 
we don't provide were out there in the community.
    So our job was to educate and encourage the community that 
if they built it, the people would come.
    Ms. Norton. You advised them on the kind of retail you 
thought people might be interested in?
    Mr. Imperato. I felt it was very I had to be very careful 
not to tell a business what they should do. It was their 
expertise that we were relying on to build what our people 
would like.
    Ms. Norton. In other words, the market will always educate 
you.
    Mr. Imperato. Yes, ma'am.
    Ms. Norton. Mr. Dent, have you any questions for this 
witness, these witnesses?
    Mr. Dent. Thank you. Thank you, Madam Chair. Yes, I do have 
a few questions and comments.
    Mr. Winstead, I will refer to your testimony in a moment 
but, as you know, DHS is about 22 disparate agencies within 
DHS, and you are trying to house as many of the critical 
components of DHS in the one location over there at St. 
Elizabeth's. It is my understanding that you are trying to 
consolidate TSA, CBP, ICE, FEMA and the Coast Guard.
    In your testimony, you said that DHS is scattered across 
the D.C. metro area, more than 70 buildings, occupying almost 7 
million square feet of space to house 22,000 employees. You 
point out too that this geographical and organizational 
dispersion hinders the consolidation of these 22 separate 
agencies into a unified, effective organization within a common 
culture.
    You also estimate that the present value savings over a 30 
year period of locating to Government-owned space versus leased 
is more than $743 million.
    I guess my main question to you is this: Once this building 
is completed, this project is completed at St. Elizabeth's and 
you do consolidate some of those component parts, how much 
lease space will DHS still be needing? Do you have any idea, 
once you move those key points?
    Mr. Abdur-Rahman. Generally, I don't have the exact 
numbers, but I can answer the question. The lease to own ratio 
for the DHS housing in the metropolitan area is about a 70-30, 
percent leased and 30 percent owned.
    If we are successful in consolidating DHS in a manner that 
they believe they can effectively operate, that ratio will 
split from 70 percent owned to 30 percent leased. I just don't 
have the exact numbers.
    Mr. Dent. So you are saying, if I understand you correctly, 
that once you move the component parts that I just mentioned 
over to St. Elizabeth's, you will be at 70 percent owned versus 
30 percent leased.
    Mr. Abdur-Rahman. Correct.
    Mr. Dent. So it just flips.
    Mr. Abdur-Rahman. It will flip.
    Mr. Winstead. Congressman, the figure that was cited in the 
testimony, the three quarters of a billion over 30 years is the 
difference between essentially that ratio being housed in 
federally-owned space at St. Elizabeth's versus it continuing 
to be in leased space. So that is a net savings to the taxpayer 
from the standpoint of the consolidation.
    Mr. Dent. Understood. Okay. So you still need at least 30 
percent of DHS' needs after the project is complete.
    The other question I have is the facilities up on Nebraska 
Avenue, those are Federally-owned. Is that correct?
    Mr. Winstead. Yes, that is correct. That continues to be 
federally-owned, and actually we are continuing to invest in 
that facility. The Nebraska Avenue complex currently has about 
22 buildings on it, and our investments in that are to 
stabilize basically the electrical service systems for that 
current compound. So there still would be either occupancy of 
DHS there or some other Federal tenant.
    Mr. Dent. Is anybody else up there currently besides DHS?
    Mr. Winstead. No.
    Mr. Dent. It is all DHS. So DHS would continue to maintain 
presence at Nebraska Avenue plus St. Elizabeth's once this 
project is complete.
    Mr. Winstead. Well, the bulk of the tenancy at Nebraska 
Avenue is going to be because the Secretary is there.
    Mr. Dent. Right. They will move to St. Elizabeth's.
    Mr. Winstead. There could be some residual tenants there, 
correct.
    Mr. Dent. Okay.
    Mr. Abdur-Rahman. The basic idea is that, as you noted in 
Commissioner Winstead's testimony, DHS is in over 70 buildings 
in over 50 locations, and the end state is 6 to 7 locations 
which includes St. Elizabeth's, the Nebraska Avenue complex and 
several other mini campuses to consolidate their D.C. housing.
    Mr. Dent. How many locations will DHS have once you 
consolidate?
    Okay, we will back to a 70 percent owned versus 30 percent 
leased. How many of those sites will you be able to eliminate?
    You said how many sites is DHS in around?
    Mr. Abdur-Rahman. They are in 50 locations.
    Mr. Dent. How many locations will they be in once this 
project is complete?
    Mr. Abdur-Rahman. Somewhere between six and seven.
    Mr. Dent. Six and seven, that is making progress, okay.
    At this time, I have no further questions. Thank you.
    Ms. Norton. Thank you very much. Those were important 
questions. We will not be able to consolidate this entire 
agency in any one place the way it has been constructed.
    Mr. Winstead, in your testimony, I am reading from a page 
that is not numbered. I am sorry. You talk about the Federal 
procurement in the D.C. metro area, $12.5 billion in 1990 to 
$28.4 billion in 2000, and you talk about how much greater it 
is than regions that are even larger in population than ours.
    In your testimony, Mr. Abdur-Rahman, you indicate that 
there will be, and again I am quoting from your testimony, ``as 
many opportunities as possible'' on Federal projects and for 
contractors on Federal projects to establish subcontracting 
goals. No. I am sorry; Federal acquisition regulations.
    Let me just read the entire thing: ``Federal acquisition 
regulations require all Federal agencies to create as many 
opportunities as possible for small businesses to compete as 
prime contractors on Federal projects and for large contractors 
on Federal projects to establish subcontracting goals for small 
businesses.''
    Then you go on to speak about $240 million in contracts in 
the region for small businesses.
    I wonder if any of you have figures, Mr. Winstead's figures 
on procurement and Mr. Abdur-Rahman figures on contractors for 
the District of Columbia, broken out. If you know the region, 
there must be a way to know how many of these are in the 
District of Columbia.
    Mr. Winstead. Madam Chair, I will ask Abdur to chat, but we 
basically already spent $13 million to stabilize the site and 
maintain the site, which our historic preservation part.
    Ms. Norton. But you spent $13 million to stabilize the 
site.
    Mr. Winstead. The current site.
    Ms. Norton. That doesn't tell me where the contractors are 
from. I am not suggesting. I understand the competitive nature 
of Federal regulations, and I am not suggesting that all 
contractors have to come from this community.
    I know you have spent money. In fact, I am going to have a 
question on the historic sites.
    Mr. Winstead. Right.
    Ms. Norton. I am trying to find out how much of the, let's 
say, $28.4 billion in Federal procurement went to residents or 
businesses in the District of Columbia. That $13 million, I am 
sure, didn't all go to the District.
    In fact, I would imagine, given how much larger the region 
is, that most of it went to businesses outside of the District 
of Columbia. I hope they were in the region. I know you have to 
take the lowest B.I.D. and all the rest of it.
    Mr. Winstead. I think that from the standpoint of Steve 
Fuller's statistics I am sure there is a way we could probably 
break it down between suburban Maryland and the District.
    Ms. Norton. Could I ask you to do that so that we have some 
sense?
    Mr. Winstead. I will.
    But, Madam Chair, I will tell you that for that, as I was 
starting, the $13 million on stabilization, we do know that the 
bulk of that went to 8(a) sub-business contractors and 40 
percent of the 8(a) contracts for the $13 million, which is 
only the beginning of $3 billion on St. Elizabeth's, 40 percent 
went to District contractors. Of that $4 million still 
underway, we think that 60 percent are going to be performed by 
District businesses.
    So we are seeing a huge percentage of the 8(a) work that 
has already been done that has gone to D.C. firms.
    Ms. Norton. Those are impressive figures. I wish you would 
provide for the record who those contractors.
    This is procurement or are these contractors? These are 
contractors?
    Mr. Winstead. Yes, those are the 8(a) contractors that have 
done the stabilization work on St. Elizabeth's.
    Ms. Norton. Yes, would you please provide that?
    Mr. Winstead. Sure.
    Ms. Norton. That information along with the breakdown of 
how much of the work was provided by each.
    I would like to ask about the so-called multiplier system. 
You use these words, Mr. Abdur-Rahman, which may tell us more 
about the economic benefits.
    You say in your testimony that the West Campus will 
generate 26,000 jobs and $931 million in payroll during 
construction alone. Whether those jobs are mostly filled by 
people, some of them live in the District, some don't. I am 
pleased to have them.
    We know that the closer an agency is to the District the 
more District residents are likely to work in the agency.
    My question really goes to the next sentence: It is also 
expected to produce $18 million per year in sales and use taxes 
after occupancy occurs.
    What does that mean, $18 million in sales and use taxes in 
the District of Columbia, right?
    Mr. Abdur-Rahman. Correct, in the region. This is a 
regional model, and this is after occupancy for the follow-on 
services and just the basic business of having 14,000 employees 
on the campus and buying services and staying in the District. 
There is an economy that is supported as a result of that 
activity.
    Ms. Norton. So this $18 million also is region?
    Mr. Abdur-Rahman. Yes.
    Ms. Norton. Sales and use taxes is also region?
    Mr. Abdur-Rahman. Yes, all these. All the data from the 
RIMS model is regional.
    Ms. Norton. I am asking you both to break that out from 
your multiplier systems in your case to let me at least what 
the lay of the land is now.
    You indicated something. I think it was in your testimony, 
Mr. Abdur-Rahman, that you anticipate that, and I am looking 
for it in the testimony. It has to do with contractors and 
office space.
    In your testimony, you said, in addition, contractors doing 
business with DHS will be tempted to locate in office space 
within a short distance of the campus to facilitate frequent 
contacts with their client. This was certainly the case with 
the Navy. You anticipate, therefore, the need for some office 
space close by the DHS facility?
    Mr. Abdur-Rahman. Yes.
    Ms. Norton. I think under the District's planning rules and 
regulations, there would have to be some retail connected with 
that as well.
    So, construction opportunities, when one considers what 
happened to M Street, it is important to note here. Again, we 
have the wall. We have a good part of the main thoroughfare, 
Ward 8, taken out by a wall. That means there is going to have 
to be a lot of creative thinking about how to make sure that 
needed retail that Federal employees will want and that the 
local community will want takes place.
    Let me suggest. Well, first, let me ask if this has ever 
occurred. I agree with Mr. Imperato, that essentially we are in 
a market economy and you are going to put out there what 
somebody can make some money doing, but the District's planning 
operation does control to some extent what goes out in our 
neighborhoods.
    People get very upset when they find certain things, fast 
food things, for example, dotting their neighborhoods and don't 
have a sit-down restaurant. That is particularly true of Ward 
8. It is true all over the city, though.
    Has the Federal Government ever surveyed its own employees 
before you move to an area to inform the market of the kinds of 
things employees are likely to look for?
    For example, the kinds of things that, oh, my goodness, I 
can't to downtown. I won't go to the Mall or I would like to 
get out of this wall in order to do what on the outside and buy 
what. Have you ever done a survey just to find out?
    Mr. Winstead. Well, Madam Chair, we do a very thorough in 
the case of DHS in terms, and obviously this is personnel 
confidential. But we look at demographics of where people are 
living and when they come, and we also are well aware the kind 
of amenities they are looking for.
    Dawud can talk about the efforts at St. Elizabeth's with 
that community and sensing through this program in September 
and the other meetings we have had over 12 up there with the 
community in terms of what they are expecting.
    But, in the case of the FDA, we have had a very active 
involvement with the employee group and the citizen group and 
community groups around the new White Oak campus. I can tell 
you how active it is. Quarterly, citizens get together with 
employees as well as the director of facilities at the FDA 
campus and talk about, as they migrate from basically south 
Rockville, the Twinbrook area, over to White Oak, what are the 
needs they need in terms of dry cleaning off campus or other 
amenities.
    That is something that this group, Labquest, which is 
similar to the economic development Anacostia effort and the 
neighborhood effort has been very active in. I would think that 
we would be taking and already are taking a similar protocol in 
dealing with St. Elizabeth's.
    It is understanding what our employees will need, what in 
fact, by security requirements and mix of use on the campus, 
will be available versus obviously the benefits of having the 
D.C. zoning and density and future neighborhood plans in 
Anacostia account for higher density and mixed use, both 
residential and obviously retail and amenities. So we would 
commit to doing the same thing.
    I think the thing I am mostly aligned with or know about is 
this FDA experience. They have incredibly good communications 
going back between what the employees need or expect as they 
migrate from Twinbrook to White Oak and what the community can 
offer. I think that model, as the Southeast Federal Center was, 
can be a good model for St. Elizabeth's.
    Ms. Norton. That kind of collaboration seems to be very 
important because to get something that one wants and the other 
doesn't might affect whether or not somebody comes.
    One of the things that occurs to me is no matter what kind 
of food you have on the inside, you might find that there are 
certain kinds of sit-down restaurants and food that you get on 
the outside that people want to come out to have, to actually 
go to lunch outside of the wall.
    Mr. Imperato, what has been the experience on 8th Street 
with that kind of communication?
    Mr. Imperato. Well, basically, we just kept the information 
flowing and the market, as you said, developed to respond to 
what people were seeking.
    You know what we had on the Navy Yard was minimal--as you 
say, fast food, very small facilities, enough in the case of 
bad weather to take care of people's basic needs. But they want 
more, and they went out to get it, and the community responded 
by building it.
    Ms. Norton. Mr. Abdur-Rahman, you mentioned the historic 
preservation. There were some considerable resources that the 
GSA, once it took control, had to put into it just to preserve 
the historic qualities of this building. Do you, you and 
perhaps Mr. Winstead, anticipate reuse of most of these 
buildings?
    Here, I preface this by saying the Federal Government is 
the only entity I know in the United States that will put money 
into preserving a building if it is a historic building. The 
reason the developers are not interested in sites which have 
historic buildings is that they obviously can't afford to do 
that because it raises the cost. So the Federal Government 
usually partners with a developer so that that whole cost 
doesn't go onto the developer.
    What kind of reuse do you anticipate at St. Elizabeth's?
    Mr. Abdur-Rahman. For this project, it was mentioned in my 
testimony that we do, with the alternatives that we have in our 
preliminary master plan, envision the reuse of the majority of 
the contributing buildings, and that has been acknowledged by 
the Advisory Council and Historic Preservation, all the other 
preservation groups that we do adapt and reuse the majority of 
the contributing buildings to the NHL.
    I wanted to add another comment to the question about the 
things that we are doing at St. Elizabeth's in terms of trying 
to marry the desire of the employees with the retail in the 
area. We have taken some steps, and we are planning additional 
steps in that area.
    When the project started, GSA and DHS with Coast Guard, DHS 
and Coast Guard assembled an employee group in the Coast Guard 
and then it will be joined by DHS as they come onto the 
program, to really represent the desires and wishes and 
questions about the employees that are going to the area. We 
began answering questions about planned developed in Ward 8 
which, as you know, has a lot of new housing starts and other 
development in the area, so that they would be aware of it.
    In our meeting on Monday with the Ward 8 Business Council 
with James Bunn and Brenda Richardson, we talked about and we 
will follow up on the idea of having like a retail roundtable 
where the Ward 8 Business Council will broker a discussion with 
GSA and DHS and Coast Guard and the developers that are 
thinking about bringing services to the community to make sure 
that we have just that type of matching of the demand and the 
need in the area because I think what we all recognize is that 
even though we are going to have, as Navy mentioned, kind of 
minimal services for DHS employees, no one eats in the 
cafeteria forever.
    The overall issue in that community is that the entire 
community is under-served right now. So we want to make sure 
that when the 14,000 employees come in, there is a matching of 
the demand and the need with the community and the DHS 
employees.
    Ms. Norton. Yes, go ahead.
    Mr. Winstead. I just wanted to comment about a question 
about historic landmark designation. Obviously, we only have a 
couple dozen National Historic Landmarks with St. Elizabeth's 
as one. We are putting a lot of effort into this both on an NCR 
level and at the commissioner's office level and working with 
the historic preservation leadership.
    Our goal is to preserve, the number I have heard is at 
least 80 percent--and this has been shared with the historic 
preservation people--of the existing structures to achieve this 
4.5 million square feet.
    I would not be misrepresenting saying that this is going to 
be an easy task. We are very engaged with these groups. As I 
mentioned, tomorrow Dick Moe is meeting for the second time 
with me. I have toured the site with Dick Moe as well as John 
Nau who chairs the Advisory Council. Our people have hired 
consultants, historic preservationists, obviously, land 
planners, space planners, master planners and the like.
    Our biggest challenge is this density around these historic 
properties, but we are confident that with the advisory role of 
ACHP and the 106 process, that we are going to achieve a 
balance between what DHS needs in housing their critical 
components to be an increasingly effective agency and 
preserving this campus.
    It is very interesting to me that in my tour over a year 
ago with Dick Moe, he turned to me at one point and said, you 
know 1.5 million square feet seems a lot of space for this 
historic campus. That was his first comment.
    His second comment was, David, we do understand that we are 
so much better off having GSA look at this with the resources 
it has and its ability to balance both historic preservation 
and the needs for making this a live campus.
    I think that is the way both we are approaching it at GSA 
and the historic preservation people are. I would also mention 
we are engaged, obviously, with the Department of Interior and 
input that we are getting from all of those groups.
    Ms. Norton. Could I ask you about access?
    As I said, most people are not much interested in going 
into a Federal building when most Federal buildings don't have 
an extraordinary view from which one can just look at 
Washington and the so-called Point and access to the Point we 
have discussed. Again, I am assuming that the access to the 
Point is going to be preserved. Could you elaborate on that?
    Mr. Abdur-Rahman. Yes. As a part of the master plan process 
and as a part of all the discussions that I have conducted with 
the Advisory Neighborhood Commission, we have talked about 
providing what we call regularly scheduled access to the Point. 
To the degree that there is some negotiated way with the 
community to provide access, that seems to be acceptable.
    I do want to point out that we have also received comments 
from Bolling Air Force Base and the White House Security Office 
that they are concerned that we not provide unscheduled open 
access at all times. So there is a balance here to try to 
strike between the security of DHS and our Federal neighbors 
and the desire of the community.
    The community, some of the ANC leaders have mentioned that 
around certain holidays or other events, as long as there is a 
procedure, they understand they can gain access to the site. 
That might be acceptable, similar to the way they have access 
to Bolling Air Force Base right now.
    Ms. Norton. Well, you now what? This is not an Air Force 
base, and this is in the middle of a community. It is not a 
highway.
    I can just tell you right now, I would be willing to sit 
with the agencies involved. I think I am going to have to do 
that. If they are talking about holidays, first of all, this 
facility is guarded 24-7.
    The Federal Government is going to have to understand that 
when you are located in a community, there are certain things 
that you have to do to be a good neighbor, and one thing you 
don't do is to say you can't get to the highest point in the 
city to survey the entire city and region except on the Fourth 
of July. You don't do that.
    You say to the community, this is the kind of thing we will 
do, but that is something that as a Member of the Homeland 
Security Committee, I am most aware of the difficulty you are 
having. That is not something you can do by yourself. I will 
call in GSA along with the appropriate agencies and see what we 
can work out.
    I want to say, finally, that what you just said, Mr. Abdur-
Rahman, about collaboration between the employees and the 
community makes me very hopeful. To establish that kind of 
collaboration as early as possible so that everybody is on the 
same page in a number of ways and retail, I suppose, would be 
only one of them. But it does seem to me that that would be a 
very important thing to do, particularly given the concerns, at 
least I have, about the wall seeming to indicate to employees 
there is no outside world there.
    I encourage you to continue with that effort, and I am very 
pleased that the Ward 8 Business Council is already involve din 
that effort. I think that is very hopeful and can be very 
fruitful for the kinds of issues we are discussing here today.
    I want to thank each and every one of you for coming.
    Well, Mr. Winstead has something.
    Mr. Winstead. Madam Chair, you mentioned earlier this issue 
of security and your concern for it and personally being 
involved with community, our planning and DHS' interest.
    You mentioned you may be looking at the security question 
in another hearing format. We would welcome that.
    The Office of Chief Architect, which I will submit to the 
Committee, just finished a new security design guide. Our 
attempt here is to obviously uphold the Federal Protection 
Service requirements, ISS standards for a Level 5 facility, 
which this will probably be, the top level of security. We do 
have a new approach which we will be implementing within the 
master plan to make sure that our security requirements and 
some of the designs are as palatable for both, obviously, 
protection as well as community.
    Ms. Norton. You say a new approach. When you say a new 
approach, what do you mean?
    Mr. Winstead. In terms of the design of our buildings and 
campuses. If you are going to have another hearing, we can get 
into this in detail, but I would like to submit this to the 
Committee at this time.
    Ms. Norton. Well, I suppose my experience representing the 
District of Columbia after 9/11 was that if Federal officials, 
particularly Members of Congress, don't watch, security 
officials just have at it and they will overreact. I have to 
tell you that people let them do it because they don't take any 
note of it.
    Right after 9/11, it was all I could do to get any other 
work done to keep them from closing down the District of 
Columbia. These checkpoints where cars go by, this was make 
work.
    Well, I am very concerned about not being able to get into 
a Federal building to use the cafeteria. I really am. I don't 
know what it means to show your ID. If all you have to do is to 
show your ID, then it is useless, isn't it?
    Then we want to be clear that anybody can come. But I tell 
you this gentleman who is head of the B.I.D. had to call 
somebody to come and vouch for him. That is the kind of thing 
that if my colleagues know about it, I think we can eliminate 
and, if we work closely with GSA, I think we can show that we 
need as much security as is useful and not so much as keeps 
taxpayers out of buildings, not to mention visitors and others 
who have business.
    Again, I thank each of you for testimony that we have found 
very helpful.
    I would like to call the next panel: Robert James from the 
Ward 8 Business Counsel; Albert Hopkins, Jr., President and 
CEO, Anacostia Economic Development Corporation; Philip 
Pannell, Executive Director, Anacostia Coordinating Council; 
Stan Voudrie, Principal, Four Points, LLC; and Barbara Lang, 
CEO of the D.C. Chamber of Commerce.
    We will just proceed from left to right. Would you, please, 
as you testify, give your name and your organization?
    Mr. James?

TESTIMONY OF ROBERT JAMES, PRESIDENT, WARD 8 BUSINESS COUNCIL; 
  ALBERT HOPKINS, JR., PRESIDENT AND CEO, ANACOSTIA ECONOMIC 
 DEVELOPMENT CORPORATION; PHILIP PANNELL, EXECUTIVE DIRECTOR, 
 ANACOSTIA COORDINATING COUNCIL; STAN VOUDRIE, PRINCIPAL, FOUR 
    POINTS, LLC; BARBARA LANG, CEO, D.C. CHAMBER OF COMMERCE

    Mr. James. Good morning, Committee Chair and Members of the 
Subcommittee on Economic Development, Public Buildings and 
Emergency Management.
    My name is Robert James. I am Chairman of the Ward 8 
Business Council. I am here today to testify about the New DHS 
Headquarters at St. Elizabeth's: Local Business Opportunities.
    First, let me start off by saying it is indeed a pleasure 
and an honor to come before you today as a resident of the 
District of Columbia. The Ward 8 community is very pleased to 
be a part of the process of planning and implementation of 
General Services Administration's new site on the West Campus 
of St. Elizabeth's Hospital.
    However, there are some issues we would like to express to 
you. There are eight of them in particular:
    Number one, engaging in CBEs, Certified Business 
Enterprises, and getting them on your schedule;
    Number two, identifying prospective job opportunities for 
Ward 8 residents;
    Number three, ensuring historic preservation;
    Number four, ensuring public access to the Point;
    Number five, conducting an impact statement on 
transportation and jobs;
    Number six, encouraging your employees to patronize 
businesses on the MLK Jr. corridor;
    Number seven, absorbing additional costs for 
infrastructure;
    Number eight, encouraging the use of public transportation 
to protect the air quality in Ward 8.
    We understand that the Coast Guard headquarters as well as 
Homeland Security will occupy some of the space on the West 
Campus of St. Elizabeth's. We have some concerns with the 
accessibility of how this project will be incorporated into our 
community.
    As you know, we already have Bolling Air Force Base and the 
community has very little access. Clearly, with the structure 
of the Coast Guard and Homeland Security, access will be 
limited. Hence, we need to find some means of cooperation with 
the 14,000 employees to be an asset to the rest of the ward, 
and the ward will benefit from the facilities being there.
    Also, there is a greater likelihood for more retail, sit-
down restaurants, et cetera. We are also interested in 
exploring the needs of the employees to get a better picture of 
their shopping and housing needs. The Ward 8 Business Council 
envisions a downtown Anacostia that is likened to the 7th 
Street corridor on Capitol Hill. We hope that GSA will 
encourage the employees to use the amenities on MLK Jr. Avenue, 
Southeast.
    Anther issue is changing traffic patterns. We assume that 
the flow of traffic will increase tremendously on MLK Jr. 
Avenue, Malcolm X and Good Hope Road, Southeast. We have two 
subway stops that will be used as well, Alabama Avenue and 
Anacostia Metro stations. You can see how important it is for 
GSA, the Ward 8 Business Council and Council Member Marion 
Barry to work together to meet the needs of the additional 
employees who will be traveling those corridors.
    As you look around the new Ward 8, there is plenty of 
affordable and upscale housing. We would hope that some of 
those 14,000 employees would be residents of our community.
    The Ward 8 Business Council has been mandated by Council 
Member Marion Barry to make sure that whatever is built in the 
new Ward 8 ensures that employment or contractual opportunities 
are available to residents or Certified Business Enterprises, 
CBEs. We also work very closely with Erik Moses who head the 
D.C. Office of Small and Disadvantaged Businesses. The Ward 8 
Business Council has a list of all the CBEs in Ward 8 that are 
qualified to participate in the building of the project from 
beginning to end.
    Additionally, we are concerned about the historic buildings 
on the west side. We attend Council Member Barry's monthly Ward 
8 History-Heritage Council meetings to discuss historic sites 
in the community. We encourage GSA to be mindful of the 
historic significance of St. Elizabeth's and the community.
    As Chairman of the Ward 8 Business Council, I would extend 
an invitation to GSA to work with us very closely so that we 
all come to a mutual agreement about the project being built on 
the West Campus. We are very excited about having new 
neighbors. We will do everything in our power to ensure that 
the transition between the community and GSA is as smooth as 
possible.
    Let me close by saying there are many other concerns that I 
have, but I am certain that between the planning and community 
meetings, we will be able to work out any differences we have.
    Again, I am delighted that GSA will be our new neighbors. 
Please feel free to call on the Ward 8 Business Council for any 
assistance we can provide.
    Thank you.
    Ms. Norton. Thank you, Mr. James.
    Mr. Hopkins.
    Mr. Hopkins. Good morning, Chairperson Holmes Norton and 
Committee Members.
    My name is Albert R. Hopkins, Jr., and I am President and 
CEO of the Anacostia Economic Development Corporation located 
in Ward 8 in Washington, D.C. I appreciate the opportunity to 
provide testimony before this Subcommittee on the proposed 
Department of Homeland Security headquarters to be located at 
St. Elizabeth's West Campus and associated opportunities for 
local businesses.
    I must first inform you, for the purposes of full 
disclosure, that the AEDC is a member of the one of the teams 
that has submitted a proposal to provide construction 
management services to the GSA to manage the construction of 
the Department of Homeland Security headquarters facility.
    By way of background, AEDC is a non-profit organization 
that has operated in the Anacostia-Far Southeast area of 
Washington, D.C. for over 37 years. It is AEDC's mission to 
provide affordable housing opportunities for District of 
Columbia residents, enhance the economic viability of the east 
of the river communities and provide support to local and small 
businesses located in this area.
    AEDC is also a participant in the Washington, D.c. Small 
Business Development Center Network. Under contract with Howard 
University and the U.S. Small Business Administration, we 
operate one of four centers located in the District of Columbia 
that provides a wide variety of technical and managerial 
assistance to small businesses located through the District. 
During the course of the current year, the Small Business 
Development Center at AEDC provided technical assistance to 
over 240 District-based clients and provides instruction and 
training to over 375 workshop and seminar participants.
    The development of the DHS headquarters at St. Elizabeth's 
West Campus represents one of the most unique opportunities 
associated with the resurgence and redevelopment of the 
Anacostia-Far Southeast community. This major Federal 
department will be located within the immediate proximity of 
resurging commercial corridors and in close proximity to 
several new and existing quality residential communities.
    The DHS facility will also be located within the boundaries 
of the planned Anacostia Business Improvement District which 
will be able to provide services such as street cleaning, 
shuttle service to and from Metro stops, and safety ambassadors 
for the DHS headquarters' personnel.
    Research compiled by AEDC staff, the Washington, D.C. 
Economic Partnership and others indicates that Anacostia-Far 
Southeast neighborhoods are undergoing an economic resurgence 
never before experienced.
    The planning, construction and development of the DHS 
headquarters facility, with its scheduled multi-year build-out, 
should be one of several economic engines that will guide and 
drive small business opportunities in this area. However, as 
has been seen in the past, this will not happen without the 
aggressive and affirmative planning and implementation of 
strategies that improve the small business utilization 
performance of both the District and Federal governments.
    I would remind the Subcommittee Chairperson of the 
September 18th, 2007 forum presented by the U.S. General 
Services Administration's National Capital Region, in 
collaboration with the AEDC, entitled St. Elizabeth's West 
Campus Business Opportunities Forum held in Ward 8 at Matthews 
Memorial Baptist Church.
    This well attended event represented the first formal 
introduction of the plans for the West Campus to the small 
business community of the District of Columbia and Ward 8. The 
event also featured GSA contracting officers as well as prime 
contractors and tenant agencies. We were honored to have the 
Congresswoman address the participants.
    However, efforts must go beyond our current emphasis to 
help small and local businesses apply for and receive LSDBE, 
SBA 8(a) and CCR, Central Contracting Registration, 
certifications. Methodologies should be put in place before, 
during and after the construction of the DHS facility to 
enhance participation by small and local businesses in every 
facet of the planning, development and operation of the 
facility.
    The formulation of joint ventures and collaborations should 
be further explored as a means by which small and local 
businesses might be significantly involved in this development 
process. Each and every solicitation associated with the 
project should require the respondent to address provisions for 
significant small and local business utilization.
    Regarding my views on the question of what types of retail 
opportunities are needed in Anacostia, my response turns on a 
very simple analysis. The retail needs of the Anacostia-Far 
Southeast neighborhood mirror those of all areas of the 
District that have experienced rising value in their commercial 
and residential real estate markets and significant positive 
changes in their demographics and work populations.
    The Anacostia-Far Southeast area is increasing in 
population as a result of the many new residential developments 
completed, under development and in the production pipeline. In 
addition, it is projected that the new DHS headquarters at St. 
Elizabeth's will add approximately 14,000 new full-time 
employees to the community. The estimated population increase 
will result in increased demand for first class retail goods 
and services.
    However, if the GSA allows substantial retail 
establishments such as restaurants, cleaners, drugstores, fast 
food establishments, bookstores, coffee houses, et cetera, to 
locate within the St. Elizabeth's West Campus, there will be no 
net benefit to the Ward 8 community since the West Campus of 
St. Elizabeth's will, in all probability, be off limits to non-
DHS or other unauthorized persons.
    It, therefore, becomes imperative for the GSA and the 
District of Columbia Government to mutually decide how to bring 
these retail goods and services to the area so that both the 
Ward 8 community and the DHS community benefit therefrom.
    One obvious solution would be for the District of Columbia 
Government to put in place a development plan which would allow 
for the establishment of retail zones along the east side of 
Martin Luther King Jr. Avenue on the East Campus of St. 
Elizabeth's. The GSA could assist the District in this regard 
by conducting a survey of existing DHS personnel to ascertain 
their retail needs and desires, provide same to the District 
and refrain from placing those types of retailers on the West 
Campus.
    The District Government, in turn, can provide parking space 
for DHS personnel on the East Campus. This would ensure that 
DHS personnel will frequent the East Campus on a daily basis 
and be exposed to the many new retail establishments on that 
campus.
    If necessary, the District of Columbia and the GSA can 
mutually decide where new traffic signals and crosswalks should 
be located along the Martin Luther King Jr. Avenue corridor to 
safely facilitate the movement of DHS personnel to and from the 
West Campus to the East Campus.
    From the Ward 8 community's perspective, there is great 
concern that the DHS headquarters on the West Campus will be an 
isolated facility which will provide no economic or 
aesthetically pleasing benefit to it.
    To be an asset to the Ward 8 community and to 
simultaneously address the security needs of the DHS, the 
District of Columbia and DHS-GSA officials should realistically 
consider where operations of the DHS which require less 
security can be placed on the West Campus. For example, at the 
Southern End of the West Campus near Milwaukee Place, perhaps 
less secure operations could be situated, thereby allowing some 
retail outlets to be placed at that location which then could 
be accessed by the general Ward 8 community.
    The objective is to make maximum use of this major economic 
development so that it not only serves and meets the needs of 
GSA and DHS but also provides economic spinoff benefits to the 
Ward 8 community in which it is located.
    In order to further facilitate the acceptance of the DHS 
headquarters within the Ward 8 community and to increase the 
opportunity for Ward 8 and District of Columbia-based Local, 
Small and Disadvantaged Business Enterprises--or what are now 
referred to as Certified Business Enterprises--to secure 
contracts, to participate in the planning and construction of 
the facility, AEDC feels strongly that the following services 
be availed to the DHS development process:
    One, provide a community liaison between the GSA, DHS, 
District of Columbia Government and the Ward 8 business and 
residential community during the planning and development of 
the facility.
    Two, create a means to work with Ward 8 and District-based 
LSDBE-CBE firms to prepare them for the contracting 
opportunities that will be made available at the DHS St. 
Elizabeth's site.
    Three, establish a working relationship with employment 
training providers, such as Opportunities Industrialization 
Center, to prepare Ward 8 residents for the employment 
opportunities that will be made available as a result of the 
new DHS development.
    It is important to note that we will only have one shot at 
this wonderful opportunity that will bring approximately 4.5 
million square feet of commercial development to the Ward 8 
community. We need to go about this task as if it is what it 
is, a land use development opportunity that seeks to address 
the needs of three entities: the District of Columbia 
Government, the Federal Government and the Ward 8 community. 
The three entities obviously need to work in concert and 
determine how best to meet each other's needs through the 
creation of a holistic economic development project.
    AEDC is appreciative to have the opportunity to offer its 
assistance in reaching this objective.
    Thank you, Madam Chairperson, for providing this occasion 
for AEDC to share its views on these subjects with you and the 
Committee. I would be pleased to attempt to respond to any 
questions that you may have.
    Thank you.
    Ms. Norton. Thank you very much, Mr. Hopkins.
    Mr. Pannell.
    Mr. Pannell. Good morning, Madam Chairwoman.
    My name is Philip Pannell, and I am the Executive Director 
of the Anacostia Coordinating Council, also know as ACC, which 
is in its 24th year as a non-profit, volunteer consortium of 
individuals and organizations concerned and involved with the 
revitalization of Anacostia and its adjacent neighborhoods. The 
ACC engages in information gathering and sharing, networking, 
advocacy and community organization.
    For the past 13 years, ACC has been chaired by Arrington 
Dixon.
    The community is excited about plans to move the new 
Department of Homeland Security to the West Campus of St. 
Elizabeth's Hospital and the local business opportunities that 
will be available. For the purposes of the DHS development, ACC 
defines local businesses as those that are located east of the 
Anacostia River and particularly those that are in Ward 8.
    The ACC recommends that the local businesses be involved in 
the planning, construction and operations in all appropriate 
aspects of the DHS headquarters development and all ongoing 
contractual work.
    ACC recommends that the General Services Administration and 
the District of Columbia Government engage in the nurturing of 
the current local businesses and encourage businesses to locate 
east of Anacostia River.
    It would be ideal if the DHS would require contractors and 
vendors to set up offices in close proximity to the Anacostia 
Metro station. Also, the ACC recommends that the businesses 
that are established on the campus be locally-owned.
    The development that occurred on and around the Navy Yard 
is an example of the opportunities that are available to those 
east of the Anacostia River with DHS. The Navy Yard development 
has had a cascading impact on that community and enhanced the 
vibrant 8th Street business corridor from Pennsylvania Avenue 
to M Street. Because of the dearth of eclectic businesses on 
Martin Luther King Jr. Avenue, ACC encourages the establishment 
of retail businesses of all kinds such as food, clothing, 
hardware, informational technology, entertainment, et cetera.
    Over the years, the ACC has been acknowledged for its 
outreach strategies and its success in organizing large 
meetings to engage community conversation and involvement. It 
is more than willing and able to be an outreach vehicle for the 
GSA and the District of Columbia Government and welcomes the 
opportunity to forge a contractual relationship.
    In the August 31st, 2007 preliminary draft to the National 
Capital Planning Commission for comment, the GSA's master plan 
for the DHS headquarters consolidation at St. Elizabeth's West 
Campus cites in its Community Involvement Summary the meetings 
that GSA representatives have had with the ACC dating back to 
2005. ACC stands ready to continue that constructive 
engagement.
    Madam Chair, with your permission, I would like mention two 
things that are not in my testimony, particularly since the 
issue of the historical aspects of the West Campus have been 
alluded to several times this morning.
    There used to be a wonderful museum that was on the West 
Campus in the Center Building. It was there for decades, and 
people quite literally came from all over the world, which was 
documented in the sign-in registry there, to see that museum, 
and the museum's focus was on the history of psychology as well 
as the history of psychiatric treatment of the mentally ill. It 
actually had artifacts such as some of the original beds when 
St. Elizabeth's opened and some Dorothea Dix's personal 
memorabilia. As a matter of fact, it had a wonderful visual 
chronology of psychiatry, starting with Freud.
    This museum, first of all, was one of the best kept secrets 
not only in Ward 8 but throughout the city because it did not 
have the money for outreach to promote the museum.
    The artifacts were dispersed to places unknown or, at your 
meeting that you had the Petey Green Center, someone from GSA 
said that well, some of the artifacts may be at Howard 
University. Some of them may be at Walter Reed.
    Wherever they are, they need to come back together because 
that was such an incredibly historical jewel in the rough, and 
that would be quite beneficial to the community in so many ways 
to actually reestablish that museum.
    Also, on the grounds of the West Campus is a Civil War 
cemetery which is unique in the aspect that it actually has the 
bodies of both African American and white Civil War soldiers 
buried there, which was unheard of to have an integrated 
cemetery. I would hope that the community will have access to 
that very historical site because it is extremely important in 
terms of the history of Ward 8 and the Civil War.
    Thank you, Madam Chairwoman.
    Ms. Norton. Well, that is a very interesting anecdote about 
this historic site. I will have staff look to see where these 
artifacts have been dispersed. We know that the cemetery hasn't 
been dispersed, and we know there is an obligation to, in fact, 
maintain it.
    But this notion of access, it comes up again, and this is 
something we are going to have to assure. I am going to have to 
work with a whole lot more than GSA on that because I have to 
contend with the people who think they run things. Those are 
the security people. They run things until there is some 
intervention, and then we are always able to get some 
relaxation.
    So, thank you for that.
    Mr. Pannell. Thank you.
    Ms. Norton. Mr. Voudrie.
    Mr. Voudrie. Good morning and thank you, Madam Chair, for 
the opportunity to appear before you today.
    My name is Stan Voudrie. I am a Principal with Four Points, 
LLC, a D.C.-based real estate development company.
    I second the comments of my fellow panelists regarding 
access to the site and development of the St. E's campus, but I 
would like to take a few moments in the opportunity to make 
this body aware of some of the planned new development in the 
historic Anacostia neighborhood.
    Four Points has formed a joint venture with the Curtis 
Family, a landowner and business owner in historic Anacostia 
for over 80 years. We have been working together with the 
various community stakeholders, the D.C. Office of Planning and 
others over the last two years to formulate a development plan 
for approximately 9.5 acres of land that we own along Martin 
Luther King Jr. Avenue.
    The site plan of the proposed development is attached to my 
written testimony for your reference.
    The plan covers an area bounded by Martin Luther King Jr. 
Avenue on the east, U Street, Southeast on the north end of the 
site, Chicago Place to the south and then 295 to the west. Our 
plan calls for the development of approximately 500 new 
residential units, 165,000 square feet of new retail space and 
855,000 square feet of new office.
    We are concluding the preliminary planning and intend to 
submit the project to the D.C. Zoning Commission for approval 
in the first quarter of 2008 which would allow us to get 
approval in late 2008 and begin construction in 2009 for a 
first phase ready to be occupied in 2011.
    It is our opinion that this neighborhood is currently 
under-served across almost every retail category even before 
the addition of the 14,000 new Federal employees in the 
neighborhood. As such, our plan calls for development that will 
bring neighborhood-serving retail to historic Anacostia. We 
have included space for a grocery store and have begun 
preliminary discussions with potential operators for that 
store. We also have space for a full service pharmacy, a 
drugstore, restaurant spaces as well as opportunity for an 
urban cinema with eight to ten screens.
    Additionally, we now have several smaller retail spaces 
that are not part of this new development but that are 
available for lease. We have recently leased one of those to a 
local entrepreneur that is starting a coffee shop, and the 
other spaces are being toured by art gallery owners, restaurant 
operators, but to date we don't have any additional leases 
signed for that space.
    Again, I thank you for this opportunity.
    We look forward to DHS moving to our neighborhood. We 
believe that with proper planning and coordination, that they 
can be a very positive addition to the community, and I welcome 
the opportunity to work with this body and GSA to make sure 
that that happens.
    Thank you.
    Ms. Norton. Thank you, Mr. Voudrie.
    Ms. Lang.
    Ms. Lang. Good morning, Madam Chair.
    I am Barbara Lang. I am President and CEO of the District 
of Columbia Chamber of Commerce, and I am pleased to testify 
before the Subcommittee on Economic Development as it considers 
the community bordering the St. Elizabeth's campus. As the 
largest business organization in this region, the Chamber works 
hard to make living, working, playing and, of course, doing 
business in the District of Columbia a much better proposition 
for everyone.
    Thank you, Madam Chair, for the invitation to testify on 
behalf of our 2000 plus members and the 200,000 residents that 
employ them about how GSA can best use its resources to aid the 
economic development of the areas adjacent to the St. 
Elizabeth's campus.
    Let me begin by saying I was delighted to hear some of the 
earlier testimony from GSA. The community adjoining St. 
Elizabeth's has been overlooked for many years, and we are 
pleased to learn that the Department of Homeland Security and 
14,000 of its employees will be relocating to the campus.
    This move creates an opportunity for economic development 
in Congress Heights that has not existed for decades. Because 
the local neighborhood economy of Congress Heights stagnated 
long ago, its residents have been largely excluded from the 
city's economic resurgence.
    Developing the St. E's campus and sharing its economic 
benefit with the community should be a foremost concern as GSA 
and DHS move forward and, to be clear, the economic benefits 
DHS brings as a new neighbor in Anacostia, must be felt outside 
St. Elizabeth's historic gate and fortified walls.
    DHS must not and cannot create an oasis of services walled 
off, withheld and withdrawn from the residents of Ward 8. Some 
residents have expressed concern that this will be a secure 
compound impervious to the community and unwilling to interact 
with its surroundings.
    We all know that an optimal environment is one in which the 
community and DHS benefit from symbiotic economic interaction. 
They must be an anchor of economic stability and a catalyst for 
development that creates jobs, encourages economic investment 
and patronizes neighborhood businesses. DHS can be a catalyst 
for change that is long overdue.
    What does this change look like? It takes the form of a 
robust economic activity, and the best example I can provide is 
the renaissance we have seen in downtown Washington such as 
Gallery Place. Over the last 10 years, it has evolved from an 
area where people came to work and left at the end of the day 
to a place where people work during the day, play and dine at 
night and enjoy at all times.
    It takes time, however, and change will happen in stages, 
but GSA can begin laying the foundation now for a similar 
economic rebirth east of the river.
    You are beginning to see several of the economic and 
community factors necessary for growth emerge. First and 
foremost, preparations are being made for construction of a 
complex that will house a cabinet level agency. In the short 
term, that means construction-related jobs. In the long term, 
it means a daily influx of employees who will demand certain 
services during the workday.
    You also have a Metro station and I-295 nearby to help 
ferry workers to work. The importance of these very basic 
infrastructural assets should not be overlooked.
    Once you get employees to work, they are going to demand 
food and other small retail services. These small retailers 
need to be patronized by DHS employees during work hours and be 
available to serve the community at all times. Examples that 
comes to mind are a diverse mix of food establishments, a CVS 
or some sort of pharmacy, a bookstore, a gift shop and perhaps 
dry cleaner.
    The vision should be to grow the economy from daytime 
establishments in the beginning and then broaden to serve the 
entire community with a mall and wider range of shops. 
Eventually, there should be sit-down dining establishments and 
a theater for nightlife. The ultimate goal should be mixed use 
development serving the needs of the people and the businesses 
upon which they rely.
    The downtown area is the best example of this model. There 
are many small businesses and vendors that cater to workers 
during the day. There is also fine dining and nightlife for 
after work. This business model of serving the office worker 
and layering economic activity to serve and coincide with them 
will be a winning strategy in the areas surrounding St. E's.
    We ask that you look to the lessons of our city's success 
downtown, along U Street, on H Street but also the Pentagon and 
Pentagon City model as you consider how to attract new 
businesses to Congress Heights.
    The final question is how to incentivize companies to 
relocate in areas around the St. E's complex. We encourage you 
to consider tax and other incentives that might include DHS 
devoting a significant percentage of their contracts to 
neighborhood businesses. Such arrangements would link DHS to 
the community and would offer new business a stable customer 
base from the outset when they are most, most vulnerable.
    The government might also consider guaranteeing small 
business loans and offering low-cost financing for vendors in 
the neighborhood.
    In DHS' move to the St. E's campus, we see tremendous 
opportunities for District residents and for DHS. The Chamber 
is available to partner with you, Madam Chair, as you move 
forward, and we look forward to St. Elizabeth's becoming 
another Washington success story.
    Thank you very much for having me testify, and I will be 
available to answer any questions.
    Ms. Norton. Well, thank you very much, Ms. Lang.
    Could I just ask a threshold question of all you who have 
experience, business experience in this city and in this 
region?
    Typically, in the District of Columbia, it has been 
difficult to get the commercial strip developed. I mean you 
have it all over the District. You have the complaints on 
Georgia Avenue.
    I am not sure I know of a residential area where the strip 
has developed as you would think it would have to serve the 
people who live there. There is money to be made there. Well, 
the same thing, obviously, pertains here.
    I live on Capitol Hill, and 8th Street was hardly. It was 
essentially moribund and it didn't matter even that over time 
it became more and more gentrified. Therefore, I don't approach 
any of this with the notion of spontaneous combustion. 
Something will happen, and I do know that when there is a big 
market of moving into an area and we have always found that 
Federal employees draw people.
    You have seen me express some skepticism here and not 
because of the community itself but because of the way the wall 
operates and spaces across the street and on either side.
    You have been in the business of trying to attract business 
to the area. Given the large population, given people needing 
services, what has been a major reason that they haven't come 
to serve the population itself for all these years?
    Why do we see such deterioration on Martin Luther King Jr. 
Avenue? It is a disgrace.
    Mr. Hopkins. Well, you have two critical components in 
order to bring the needed retail goods and services that we all 
desire, and those two critical components that are needed are a 
strong daytime consumer base and you need an economic rising 
residential base where the incomes are higher than what have 
always been historically present east of the river.
    The residential base is coming because of Henson Ridge 
development and shops at Park Village, et cetera, all of the 
many housing developments on the way. But that daytime consumer 
base, where you have people with disposable income, we don't 
have that great a population. So, therefore, Homeland Security 
with 14,000 personnel full-time employees, provides a great 
opportunity.
    Also, we have been saddled with a long strip of M.L. King 
that has had actually no retail commercial type development. So 
those characteristics that we have been faced with have sort of 
held us back.
    Ms. Norton. Yes, you have burdens that other neighborhoods 
don't have in that regard, but I think you make an important 
point here about daytime people, daytime traffic as well, and 
that may explain why other residential neighborhoods have 
experienced the same problem of development along the strip. We 
hope that, again, if the planning is done well, if in fact the 
kind of collaboration that was mentioned in the GSA testimony 
by Mr. Abdur-Rahman occurs with employees and community 
residents, perhaps we can overcome some of these burdens.
    Mr. James, would you discuss? I understand the Ward 8 
Business Council has been working with GSA in order to get some 
kind of collaboration with employees.
    Mr. James. Yes, we do plan to meet with them again to 
implement that. We do plan to meet with them again.
    Ms. Norton. You want to start this collaboration with the 
employees to come on the kinds of services you think people are 
going to need?
    Mr. James. Yes, we will do that, and we will do that very 
soon.
    Ms. Norton. Ms. Lang, you mentioned Gallery Place. By the 
way, Gallery Place and all of downtown is the accidental, I 
should say is the accidental, not entirely but large parts of 
it, beneficiary of the D.C. business tax credits that I got in 
the 1990s. When I got the home buyer tax credit, I got these 
business tax credits which make it easier to build.
    What I was doing was bargaining down the poverty rate so 
that we could get because we knew you get tax credits already 
in very poor neighborhoods. So I wanted to bargain down so that 
we could begin to deal with neighborhood strips.
    In fact, what happened was that in bargaining down the 
rate, it is better than the lowest rate that the Federal 
Government often uses, but it turns out that it included 
students in the District of Columbia. So students at Georgetown 
and George University who, believe me, I did not have in mind, 
got included in this.
    So, Gallery Place, of course it had TIFF. It had some 
things going for it.
    I see this, and again these analogies are very rough, as 
more like U Street. The only U Street had going for it was it 
got the subway stop, and that has been important, and we have 
seen development on U Street. I think we have seen some 
development we like and we are very pleased with on U Street.
    Were there ingredients along U Street, you think, besides 
the subway that encouraged the development there?
    Ms. Lang. I think so, and I will answer that by responding 
to your earlier question. I think two of the big inhibitors 
that we have in D.C. are the lack of a bigger plan and a 
vision. We do deals. We do deals very well, and we had to do it 
that way to reinvigorate and to get things going in the 
downtown.
    What we have not done particularly well--I was delighted to 
hear all the discussion earlier--is an overall plan for the 
city or for an area. I think we are starting to see that with 
this project. So I think that is very key.
    The other thing, Madam Chair, that we cannot lose sight of 
and the thing that inhibits businesses from coming in, it is 
very costly to do business in the District of Columbia, at 
least one third more than our suburbs. So that is one of the 
things that we face from the very beginning in terms of our tax 
structure and things that you know so very well of not being 
able to tax non-resident income. So that is a big inhibitor for 
us.
    Going to your question on U Street, I think that we have 
seen certainly the resurgence and I think we have a balance of 
the large national chains coming in. But the thing that I want 
to make sure that we don't lose in any of the things that we 
are doing is the local business community.
    The larger chains can come in, and they can pay the larger 
tax structure. They can because they can subsidize in other 
ways and that certainly gives them the brand recognition that 
they need.
    Your smaller businesses don't have the ability to have 
their concerns subsidized from another way. So we have to be 
sure as we are doing any planning, that yeah, you need the 
bigger, the name brands coming in, but you also want to make 
sure the that local business community, those local brands, are 
getting that same thing. It becomes a lot more expensive for 
your local businesses to be able to afford that.
    So I think that is part of what we have to make sure we 
take advantage of in our planning and that we are able somehow 
to offer subsidies and tax incentives to encourage those local 
businesses, whether it is the local coffee shop, the local 
pharmacy, the dry cleaner, whatever that is, and not the 
national chains across the board.
    Ms. Norton. Mr. Voudrie, I was very pleased to hear your 
discussion of what you are about to do. Is it Four Points? 
Somebody has owned that land for some time.
    Why did you decide to develop this office space, retail 
space and housing at this time?
    Mr. Voudrie. Well, as Ms. Lang has said, it is expensive 
for businesses to do business in the District comparatively to 
the suburbs, and we saw an opportunity here where the close 
proximity to the Navy Yard, the close proximity to downtown and 
the relatively large track of land that we were able to 
assemble gave us the opportunity to build office space in a 
location that has that incredible proximity to the business 
core but at a little bit lower price because of the reality 
that the neighborhood has been under-served.
    Ms. Norton. What business core?
    Mr. Voudrie. It is close. It is very close. It is one metro 
stop from the Navy Yard. We had started planning this before 
DHS announced plans to locate at St. Elizabeth's.
    But we are one metro stop from the Navy Yard. We are two 
metro stops from L'Enfant Plaza. We are minutes from downtown. 
We have multiple bridge access points. So, Anacostia, while it 
has been under-served, I think now is the time for this type, 
for a new type of development.
    Ms. Norton. Mr. Voudrie, let me just inform you there are 
some empty buildings on M Street. So I am not sure that 
developers are going to cross the Anacostia. There are some 
buildings. There was such over-building.
    I think they are going to be filled. Indeed, GSA and the 
B.I.D. and I are having a forum down there.
    You haven't mentioned DHS. Do you believe DHS contractors 
that we heard testimony are likely to want to be close to DHS 
would want to?
    Mr. Voudrie. I believe certainly that there are DHS 
contractors that will want to locate here, and we see that as 
an added benefit to developing in this area.
    Navy Yard contractors, education users, D.C. Government 
agencies as well, city agencies as well as Federal agencies 
have expressed desire to locate here, and we are in discussions 
with groups that will close to fill up our entire first phase 
of the office space. So the demand for office is still strong 
and is strong in this neighborhood.
    Ms. Norton. What has been the reaction of the community to 
your proposal?
    Mr. Voudrie. The community, as we are hearing today, is 
very concerned about the type of retail that is going to be 
provided there, and the community wants to see a mix of 
housing, not just affordable, for rent housing but for sale 
housing for people across all economic levels.
    But the primary thing that we are hearing is what are the 
opportunities for retail. People in the neighborhood want to 
see another grocery store. We have gotten a lot of good press 
about the grocery that Giant opened.
    Ms. Norton. Do you anticipate there will be a grocery 
store?
    Mr. Voudrie. We have. We are in discussions right now with 
a number of grocers. We have a grocery store planned for our 
first phase which we are hoping to have open by 2011. We do 
have a location available for a grocery store as well as the 
drugstore, which Ms. Lang mentioned, that is available not just 
for people commuting to and from DHS but to serve the residents 
of this community.
    Ms. Norton. Your notion of office space provides some of 
the daytime traffic Mr. Hopkins was talking about. Mr. Hopkins, 
would you indicate to me what the status of_is this called the 
Gateway Building?
    Mr. Hopkins. Yes.
    Ms. Norton. This is the building just as you cross the 
bridge, Martin Luther King and Good Hope Road.
    Mr. Hopkins. That is correct, 1800 Martin Luther King Jr. 
Avenue. Madam Chairperson, the status is we are negotiating 
with the District of Columbia to occupy the two office floors. 
AEDC is moving its office to the first floor in the rear of the 
building on sort of the northwest corner of the building. The 
District Government should be in the building around August 
after tenant build-out work for them is completed.
    What we really are anxious to see happen is the planned 
District's Department of Transportation that is proposed to 
relocate from the Reeves Center on 14th Street and be on the 
remaining space that is located at the site. That building 
would be approximately 377,000\1\ square feet. It would have 
about six floors, and the total population workforce is about 
600 people and the average income is $50,000.\2\ So that is $30 
million of potential disposal consumer income.
---------------------------------------------------------------------------
    \1\ Changed from 77,000 during editorial process.
    \2\ Changed from $55,000 during editorial process.
---------------------------------------------------------------------------
    Ms. Norton. From whom? I am sorry. What was that tenant 
again?
    Mr. Hopkins. Department of Transportation, the District's 
Department of Transportation.
    Ms. Norton. I see.
    Mr. Hopkins. I believe that the city will make an 
announcement either by the end of this month or hopefully 
during the first couple of months of next year as to who the 
chosen developer is to build the building.
    Ms. Norton. Ms. Lang mentioned a plan. I am not sure the 
nature of the plan, but we know what the GSA is doing. We know 
what its obligations are. Mr. Hopkins allows as he is already 
seeking to provide services. We know about the planning 
operations.
    Mr. Hopkins, when you mention in your testimony that there 
should be ways--you call them methodologies--during 
construction to enhance participation by small and local 
businesses in every facet of the planning. I believe Federal 
regulations do require that.
    But I want to know what the District should be doing, in 
your view, with GSA or otherwise when we consider that this 
large project is coming.
    Mr. Hopkins. Well, it is interesting. The District, at one 
time, was planning for proposed future uses on the east side 
campus of St. Elizabeth's. They had the architectural firm of 
RTKL and Associates. I joined that planning exercise and then I 
guess after a few years everything stopped, but I am encouraged 
now because I have been told recently by a gentleman from RTKL 
that the city has hired them again to look at how to plan for 
the east side campus revitalization.
    I understand from hearing GSA today that they are in 
discussions, working closely with the city, and I know they 
have requested the city to provide space for parking. Well, if 
the city creates those retail zones on the east side and you 
have some parking opportunities for the west side employees to 
park and they go back and forth, that certainly is going to 
open up that east side campus, especially if it has retail 
establishments there. Then there is a reason for people to 
cross the street.
    I really would like to see something done with that wall, 
but again you have to fight the historic nature of the wall. So 
it probably will remain.
    There are certainly opportunities at the Milwaukee end of 
the west side campus where you could put some less secure 
facilities of DHS and maybe some retail opportunities, so 
people in the community can frequent the West Campus and it 
won't be so secure, so to speak.
    So I think the city really has to move fast because you 
don't want GSA to be so overly concerned with meeting the needs 
of their employees and, if they cannot see what the city is 
planning for the opposite side of the street, they will be 
forced to look and attempt to locate retail facilities on the 
West Campus. We really have to get the city out ahead of them.
    I think if GSA did a survey of their personnel, it would be 
helpful. It also would buttress the retailers' proposals to do 
business because they will have access to those types of 
surveys to justify to financiers that they have a good 
proposal. So we can work together, certainly, to make that 
work.
    Ms. Norton. It is very important what you say about the 
East Campus and the wall. You are right, Mr. Hopkins. If a 
mission of the GSA is to preserve, is to do historic 
preservation, that wall is not coming down.
    But everybody, look. Look on M Street. That wall didn't 
come down either. That is a similar wall along M Street, and it 
just developed on the other side. It is more burdensome, but 
here is the East Campus.
    Now I can understand why you say this began some years ago. 
They were looking at it. But you may have answered your 
question. When they were looking for daytime traffic, they 
probably didn't find it. Now you have it.
    This is what I fear, and I think I share your fear. If 
there is not a plan--Ms. Lang talked about a plan--beyond your 
normal master plan of we want some retail, and we have a master 
plan in the District. It deals with transportation and such. We 
dealt with transportation. We have two subway stops. We are 
going to have to deal with the streets.
    But here you have I can only call it a campus because I 
don't see it as anything else at this point. One needs to get 
inside there. Some of that is going to have to be preserved. 
Let's face it.
    The part that we are all interested in is for daytime 
traffic so that retail of various kinds and commercial 
businesses will want to come, we know where we want it. But I 
don't know of any plan, and that is what I am asking you.
    Mr. Hopkins has indicated that there were some consultants 
looking at it.
    Mr. Hopkins. They are back again. The city has again 
retained RTKL and Associates to do that.
    We have to remember that both campuses are historic.
    Ms. Norton. Exactly.
    Mr. Hopkins. So we have to find what parcels along the east 
side corridor can be made available for retail and development.
    Ms. Norton. Do you know whether that has been done? Do you 
know whether a survey of the campus has been done that would 
indicate which parts of the campus are more suited for retail 
and which must be maintained?
    Mr. Hopkins. I believe RTKL has done that the first time 
around, and the city just kind of gave up on it for whatever 
reason.
    Ms. Norton. Yes. Well, I think they gave up because even if 
you did it, the daytime traffic notion comes in.
    Look, this is going to be construction over years. The 
Coast Guard is only the first building. One of the great 
benefits of this construction is you don't just put up a 
building and then there it all goes. There should be continuing 
benefits to the community.
    I would say probably 15, 20 years of construction. We don't 
like construction, but at least it will be going on in the 
inside, so the community won't be obstructed. But that's a 
continuing revenue stream, and these people are going to move 
in as the buildings come up.
    Some of them are not going to want to come across the 
Anacostia. Well, they are coming. If they want their jobs, they 
are coming. And, they are not going to necessary want to come 
out.
    So, in a real sense, this is a marketing challenge for the 
District of Columbia and the community, and I am anxious to see 
the planning proceed afoot because the sooner we have it the 
less problems we will have with the employees.
    We will have some pushback from employees that can't do 
anything about it. I have seen how that works. Some surly 
people who are used to being downtown who are now going to find 
themselves in downtown Ward 8, and we have to make sure that 
that is, in fact, the kind of downtown our community, as well 
as the employees, might want.
    I want to inform all of you that I am having a hearing, 
especially in light of your testimony, Mr. Hopkins, that small 
businesses and so forth. Among the agencies under the 
jurisdiction of our Committee are three agencies that do a 
large amount of business with small businesses. You heard me 
ask GSA, I want a breakdown for the District of Columbia.
    FEMA, GSA, which is the grand-daddy of them all because it 
does a lot of the procurement for the entire Federal 
Government, DOD and those places. FEMA, GSA, EDA, I am going to 
have a separate hearing on them, asking them to come in and 
tell me where they are now, and I am going to be working with 
them on small business opportunities for the District of 
Columbia. Considering this large development, I will be 
particularly focused on this development.
    Now we have been able to negotiate an apprenticeship 
program for certified apprenticeships in this region. It is a 
little different from the pre-apprentice opportunities that 
have been available in the District. Have any of those 
opportunities been used in Ward 8?
    Not the GSA opportunities, because they haven't been there, 
but the pre-apprenticeship opportunities, have any of those 
been used in Ward 8 to your knowledge?
    Mr. Hopkins. They have been used where the development has 
occurred either on city-owned land, and/or the development 
project has received benefits from the city, and so it is a 
requirement of the city that the GCs have an approved 
apprenticeship program. But I am not aware of any Federal 
contracting projects.
    Ms. Norton. Did the District build that building?
    Mr. Hopkins. Right. It was on District land. So we had an 
apprenticeship program, our general contractor did.
    Ms. Norton. I do want to indicate that we are talking about 
maybe 20 years of construction. We have been talking about 
business here. Jobs for people is going to be important to do. 
I think part of what happened at the baseball stadium really 
didn't have to do so much with this.
    I really think there is something to the notion that when 
people haven't had access to this kind of job--you are talking 
about people going out in the heat and in the cold--very 
special pre-apprenticeship programs have to be done. We will be 
very much willing to work with the District and with the local 
community to make sure that you don't come in and see all the 
jobs there are not going.
    After all, they are real people. The most immediate effect 
they can get would be to get some jobs during construction. 
They are not going to own anything, but they should get some 
benefit immediately, and the construction is going to be going 
on.
    I want to ask Mr. Voudrie, have you begun to market?
    I was very impressed with what you said about, goodness, a 
grocery store. Have you begun to market the office space and 
found tenants that are interested in office space?
    Mr. Voudrie. We have begun marketing the office space that 
is going to be in the first phase of our development.
    Ms. Norton. There is what?
    Mr. Voudrie. That will be in the first phase of our 
development. So we are marketing to larger users that would be 
interesting in a built-to-suit type of situation.
    So we are in discussions with predominantly educational 
users as well as a few government contractors at this point but 
nothing that is able to be disclosed at this time. We don't 
have any firm commitments yet. We are about two years off.
    Ms. Norton. Well, I think what you are doing is very 
ground-breaking and important, and I think it is going to be 
successful and it is going to be ahead of the game.
    Mr. Voudrie. Thank you.
    Ms. Norton. Because I really do think it is going to happen 
and that it will be important to have some space there and 
people not just start to build when they think something is 
going to happen at St. Elizabeth's. That is going to take time 
too.
    So I suppose I am in a rush. I am very pleased with how the 
community has, for years now, thought about what kind of 
development is needed.
    So you are up and ready. You know a lot. I think the 
questions and suggestions about surveys of Federal employees. I 
would ask that you work with the District to get something more 
official in the way of a survey of the community. I don't think 
that that should be your mission because somebody should hire a 
consultant to do that.
    This is a community full of residents, full of residents on 
either side of Martin Luther King Jr. Avenue. Some of them, as 
they see some development occur, for example, around the Giant, 
may find, well, that is where we would go. Maybe Martin Luther 
King Avenue isn't simply a repeat of what is in another part of 
the ward.
    So I think it would be useful for the Federal Government to 
have some sampling of the kind I am going to ask GSA to get 
from Federal employees about people would like to see. This 
generic notion is helpful, but if we are talking about Federal 
employees and the community, getting both of those straight 
together is going to be important in light of the fact that 
both are going to need to do it.
    So we hear it is coming, a grocery store. I know you will 
hear that time and time again.
    Mr. Hopkins said something that I can almost guarantee you 
is the case, that they shouldn't be doing a coffee house and 
they shouldn't be doing a bookstore. I love this list of things 
that they shouldn't be doing, establishments such as--I don't 
know--fast food. Maybe if you all really want that on the 
outside, you can have it.
    Drugstores, you are not going to find that, and coffee 
shops, bookstores. Those are inappropriate for inside a Federal 
building.
    Ms. Lang. Madam Chair?
    Ms. Norton. Yes.
    Ms. Lang. Just a couple of comments, one going back to your 
comment on the local business and ensuring that a good bit of 
this goes to local business, and I am delighted that you are 
going to pursue that further.
    I have not looked at numbers in the past year, but a year 
ago when I looked at the Federal spending into the District of 
Columbia, there was so little that it would not even register 
on a graph. Now there is a lot going to the region but not to 
the District of Columbia. So I just urge that we are able to 
change that direction and primarily because local businesses 
are the ones that will hire District residents first and 
foremost.
    As you may know I also chair the District's Workforce 
Investment Council, and one of the things that we are focused 
on is a workforce strategy for the city that will be ready in 
March. We have done a lot of work in Ward 8 and working with 
Council Member Barry and his staff because that is where we 
have a major concentration of unemployed residents.
    So how do we get them prepared for those jobs that will be 
coming online not just in Ward 8 but all over the District? So 
I think the key to this is making sure that local businesses, 
at least in the District of Columbia, are getting a large 
percent of the business that will be coming out of this 
development.
    Ms. Norton. Let me caution everyone particularly since we 
have here those of you who aid small businesses. The Federal 
Government is competitive. GSA has done a very good job within 
that competitive system of getting minority and women and small 
business. I know it. I have seen it here in the District of 
Columbia.
    But it does seem to me that the services you provide are 
going to become more essential than ever, and I would like to 
work with you to make sure that our folks who haven't had that 
opportunity will know they now have it and can be prepared to 
participate in these competitions. There is no way to get 
around Federal Law and Federal competitions.
    Now you will see the region is the grand master of 
procurements and contracts. They have an extraordinary, highly 
skilled workforce. The big contracting part of the United 
States is in our region and yes, if you compare that to the 
District, we will always be miniaturized compared to that.
    But there is no question in my mind that with some 
indication of how to compete, we can take advantage of this 
extraordinary opportunity. Maybe it will provide us, Ms. Lang, 
with the opportunity to have people understand that they should 
be competing not only for this opportunity but for other 
opportunities which are massive from the grand-daddy of them 
all. The grand-daddy of contractors and procurers is the United 
States Government.
    Your testimony has been extraordinarily helpful to us in 
our ongoing work to prepare for the coming of this new 
headquarters. Please continue to be in touch with us and let us 
know ways in which we can be helpful to you. Thank you again.
    The hearing is adjourned.
    [Whereupon, at 12:27 p.m., the Subcommittee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                    

</pre></body></html>
